<html>
<title> - H.R. 1612, PUBLIC LANDS SERVICE CORPS ACT OF 2009</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
           H.R. 1612, PUBLIC LANDS SERVICE CORPS ACT OF 2009

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                SUBCOMMITTEE ON NATIONAL PARKS, FORESTS

                            AND PUBLIC LANDS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                        Thursday, April 2, 2009

                               __________

                           Serial No. 111-15

                               __________

       Printed for the use of the Committee on Natural Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
48-449                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                     COMMITTEE ON NATURAL RESOURCES

              NICK J. RAHALL, II, West Virginia, Chairman
          DOC HASTINGS, Washington, Ranking Republican Member

Dale E. Kildee, Michigan             Don Young, Alaska
Eni F.H. Faleomavaega, American      Elton Gallegly, California
    Samoa                            John J. Duncan, Jr., Tennessee
Neil Abercrombie, Hawaii             Jeff Flake, Arizona
Frank Pallone, Jr., New Jersey       Henry E. Brown, Jr., South 
Grace F. Napolitano, California          Carolina
Rush D. Holt, New Jersey             Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Louie Gohmert, Texas
Madeleine Z. Bordallo, Guam          Rob Bishop, Utah
Jim Costa, California                Bill Shuster, Pennsylvania
Dan Boren, Oklahoma                  Doug Lamborn, Colorado
Gregorio Sablan, Northern Marianas   Adrian Smith, Nebraska
Martin T. Heinrich, New Mexico       Robert J. Wittman, Virginia
George Miller, California            Paul C. Broun, Georgia
Edward J. Markey, Massachusetts      John Fleming, Louisiana
Peter A. DeFazio, Oregon             Mike Coffman, Colorado
Maurice D. Hinchey, New York         Jason Chaffetz, Utah
Donna M. Christensen, Virgin         Cynthia M. Lummis, Wyoming
    Islands                          Tom McClintock, California
Diana DeGette, Colorado              Bill Cassidy, Louisiana
Ron Kind, Wisconsin
Lois Capps, California
Jay Inslee, Washington
Joe Baca, California
Stephanie Herseth Sandlin, South 
    Dakota
John P. Sarbanes, Maryland
Carol Shea-Porter, New Hampshire
Niki Tsongas, Massachusetts
Frank Kratovil, Jr., Maryland
Pedro R. Pierluisi, Puerto Rico

                     James H. Zoia, Chief of Staff
                       Rick Healy, Chief Counsel
                 Todd Young, Republican Chief of Staff
                 Lisa Pittman, Republican Chief Counsel
                                 ------                                

        SUBCOMMITTEE ON NATIONAL PARKS, FORESTS AND PUBLIC LANDS

                  RAUL M. GRIJALVA, Arizona, Chairman
              ROB BISHOP, Utah, Ranking Republican Member

 Dale E. Kildee, Michigan            Don Young, Alaska
Neil Abercrombie, Hawaii             Elton Gallegly, California
Grace F. Napolitano, California      John J. Duncan, Jr., Tennessee
Rush D. Holt, New Jersey             Jeff Flake, Arizona
Madeleine Z. Bordallo, Guam          Henry E. Brown, Jr., South 
Dan Boren, Oklahoma                      Carolina
Martin T. Heinrich, New Mexico       Louie Gohmert, Texas
Peter A. DeFazio, Oregon             Bill Shuster, Pennsylvania
Maurice D. Hinchey, New York         Robert J. Wittman, Virginia
Donna M. Christensen, Virgin         Paul C. Broun, Georgia
    Islands                          Mike Coffman, Colorado
Diana DeGette, Colorado              Cynthia M. Lummis, Wyoming
Ron Kind, Wisconsin                  Tom McClintock, California
Lois Capps, California               Doc Hastings, Washington, ex 
Jay Inslee, Washington                   officio
Stephanie Herseth Sandlin, South 
    Dakota
John P. Sarbanes, Maryland
Carol Shea-Porter, New Hampshire
Niki Tsongas, Massachusetts
Pedro R. Pierluisi, Puerto Rico
Nick J. Rahall, II, West Virginia, 
    ex officio

                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Thursday, April 2, 2009..........................     1

Statement of Members:
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     1
        Prepared statement of....................................     3

Statement of Witnesses:
    Childress, James, Civilian Conservation Corps of West 
      Virginia...................................................    27
        Prepared statement of....................................    28
    Hendricks, Marcus, SCA Participant, George Washington 
      University.................................................    22
        Prepared statement of....................................    23
    Jewell, Sally, President and CEO, Recreational Equipment, 
      Inc., and Trustee, National Parks Conservation Association.    29
        Prepared statement of....................................    30
    Kashdan, Hank, Associate Chief, Forest Service, U.S. 
      Department of Agriculture..................................     9
        Prepared statement of....................................    10
    Penny, Dale M., President and CEO, The Student Conservation 
      Association................................................    17
        Prepared statement of....................................    19
    Prouty, Sally T., President and CEO, The Corps Network.......    23
        Prepared statement of....................................    24
    Reynolds, John J., Coalition of National Park Service 
      Retirees...................................................    35
        Prepared statement of....................................    36
    Shafroth, Will, Deputy Assistant Secretary for Fish, Wildlife 
      and Parks, U.S. Department of the Interior.................     4
        Prepared statement of....................................     6


LEGISLATIVE HEARING ON H.R. 1612, TO AMEND THE PUBLIC LANDS CORPS ACT 
OF 1993 TO EXPAND THE AUTHORIZATION OF THE SECRETARIES OF AGRICULTURE, 
COMMERCE, AND THE INTERIOR TO PROVIDE SERVICE-LEARNING OPPORTUNITIES ON 
 PUBLIC LANDS, HELP RESTORE THE NATION'S NATURAL, CULTURAL, HISTORIC, 
    ARCHAEOLOGICAL, RECREATIONAL, AND SCENIC RESOURCES, TRAIN A NEW 
  GENERATION OF PUBLIC LAND MANAGERS AND ENTHUSIASTS, AND PROMOTE THE 
   VALUE OF PUBLIC SERVICE. (PUBLIC LANDS SERVICE CORPS ACT OF 2009)

                              ----------                              


                        Thursday, April 2, 2009

                     U.S. House of Representatives

        Subcommittee on National Parks, Forests and Public Lands

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 2:00 p.m. in 
Room 1324, Longworth House Office Building, Hon. Raul M. 
Grijalva, [Chairman of the Subcommittee] presiding.
    Present: Representatives Grijalva, Bishop, Holt, Bordallo, 
Christensen, DeGette, Inslee and Sarbanes.

 STATEMENT OF THE HONORABLE RAUL M. GRIJALVA, A REPRESENTATIVE 
             IN CONGRESS FROM THE STATE OF ARIZONA

    Mr. Grijalva. Thank you very much. Let me call the 
Subcommittee on National Parks, Forests and Public Lands to 
order on a hearing on the Public Lands Service Corps Act of 
2009. Today the Subcommittee will hear testimony on legislation 
I introduced two weeks ago, along with Chairman Rahall, to help 
repair and restore our nation's public lands while employing 
and training thousands of young Americans and promoting a 
culture of public service.
    In 1993 when the Public Lands Corps was established through 
the good work of our late colleague, Bruce Vento of Minnesota, 
there were huge backlogs of labor-intensive work on national 
park lands, forests, wildlife refuges, historic sites and 
Indian lands. Unfortunately, we still face those challenges and 
more. Years of inadequate funding have put these agencies 
further behind on vital maintenance work while infrastructure 
continues to crumble.
    Despite the best efforts of these underfunded agencies, 
natural and cultural resources have been neglected, and in many 
places, the effects of climate change are magnifying earlier 
problems, such as fire risk, damage by insects and invasive 
species, coastal erosion and fragmented habitat. We have 
started to attack this problem with the recently passed 
stimulus legislation, but this is only a start.
    Much remains to be done on our public lands. The bill, H.R. 
1612, will expand and invigorate an existing program, the 
Public Lands Corps, by streamlining its management, modernizing 
its scope and providing new tools to help the program 
accomplish its mission.
    This legislation not only takes a decisive step forward in 
finishing desperately needed work on our national park lands, 
forests, wildlife refuges, historic sites and Indian lands, but 
also recognizes the importance of our coastal and marine 
systems and our national marine sanctuaries. These lands and 
waters have not previously been eligible for Public Lands Corps 
projects.
    Our legislation adds authority to participate in the 
program by offering Corps members a chance to work on restoring 
coastal and marine ecosystems along our oceans and Great Lakes. 
In addition, the legislation adds incentives and encourages the 
agencies to pursue an aggressive outreach program to attract 
new participants, especially from underrepresented populations, 
and prepare them for possible careers in those agencies or in 
conservation fields.
    This expanded public service initiative will introduce 
people from a greater diversity of social, ethnic and cultural 
backgrounds to our nation's parks, forests and public lands--
not only as possible future employees, but as lifelong 
enthusiasts and protectors.
    The bill also includes language to ensure adequate housing, 
authorize participants in existing volunteer programs to 
contribute both as mentors and on Corps projects, expand the 
program for college and graduate students and broaden 
preferential hire provisions. This legislation takes advantage 
of an opportunity to provide meaningful employment and training 
to young people who need it while also improving the condition 
of our priceless natural and cultural resources.
    I am pleased that President Obama and Interior Secretary 
Salazar have made national service a priority, and I look 
forward to the comments of our Administration witnesses today. 
I am proud to have the support of preeminent conservation 
groups, as well as the leading national parks advocacy groups, 
all of whom are here to testify today.
    I also want to thank the gentleman from West Virginia, our 
Chairman, Mr. Rahall, for his support of this legislation. 
Other members have also indicated their interest in service 
learning on public lands, and I look forward to working with 
them and with members of the other body who have a long 
interest in the Public Lands Corps.
    With this, I will hold further comments until Mr. Bishop 
arrives for his opening comments, but let me welcome our 
witnesses today and our first panel, Mr. Will Shafroth, Deputy 
Assistant Secretary for Fish, Wildlife and Parks, U.S. 
Department of the Interior, and Mr. Hank Kashdan, Associate 
Chief of the U.S. Forest Service.
    Gentlemen, your written statements will be made part of the 
record and your oral comments are limited to five minutes. 
Welcome. It is good to have you here. I look forward to your 
comments on this legislation. Sir, if you would like to begin. 
Thank you for being here.
    [The prepared statement of Mr. Grijalva follows:]

        Statement of The Honorable Raul M. Grijalva, Chairman, 
        Subcommittee on National Parks, Forests and Public Lands

    Today the Subcommittee will hear testimony on legislation I 
introduced two weeks ago, along with Chairman Rahall, to help repair 
and restore our nation's public lands while employing and training 
thousands of young Americans and promoting a culture of public service.
    In 1993, when the Public Lands Corps was established through the 
good work of our late colleague Bruce Vento of Minnesota, there were 
huge backlogs of labor-intensive work on national park lands, forests, 
wildlife refuges, historic sites and Indian lands.
    Unfortunately, we still face those challenges and more: years of 
inadequate funding have put these agencies further behind on vital 
maintenance work while infrastructure continues to crumble. Despite the 
best efforts of these underfunded agencies, natural and cultural 
resources have been neglected, and in many places the effects of 
climate change are magnifying earlier problems such as fire risk, 
damage by insects and invasive species, coastal erosion and fragmented 
habitat.
    We have started to attack this problem with the recently passed 
stimulus legislation, but that is only a start. Much remains to be done 
on public lands.
    Our bill, H.R. 1612, will expand and reinvigorate an existing 
program, the Public Lands Corps, by streamlining its management, 
modernizing its scope and providing new tools to help the program 
accomplish its mission.
    This legislation not only takes a decisive step forward in 
finishing desperately needed work on our national park lands, forests, 
wildlife refuges, historic sites and Indian lands, but also recognizes 
the important are our coastal and marine systems, and our national 
marine sanctuaries.
    These lands and waters have not previously been eligible for Public 
Lands Corps projects; our legislation adds authority for the National 
Oceanic and Atmospheric Administration to participate in the program by 
offering Corps members a chance to work on restoring coastal and marine 
ecosystems along our oceans and the Great Lakes.
    In addition, the legislation adds incentives and encourages the 
agencies to pursue an aggressive outreach program to attract new 
participants, especially from underrepresented populations, and prepare 
them for possible careers in those agencies or in conservation fields.
    This expanded public service initiative will introduce people from 
a greater diversity of social, ethnic and cultural backgrounds to our 
nation's parks, forests and public lands not only as possible future 
employees but also as lifelong enthusiasts.
    The bill also includes language to:
    <bullet>  ensure adequate housing,
    <bullet>  authorize participants in existing volunteer programs to 
contribute both as mentors and on Corps projects,
    <bullet>  expand the program for college and graduate students, and
    <bullet>  broaden preferential hire provisions.
    This legislation takes advantage of an opportunity to provide 
meaningful employment and training to young people who need it, while 
also improving the condition of our priceless natural and cultural 
resources.
    I am pleased that President Obama and Interior Secretary Salazar 
have made national service a priority and I look forward to the 
comments of our administration witnesses today.
    I am proud to have the support of the pre-eminent conservation 
corps groups, as well as leading national parks advocacy groups, all of 
whom are here to testify today.
    I also want to thank the gentleman from West Virginia, Chairman 
Rahall, the chairman of full committee, for his support of this 
legislation. Other members have also indicated their interest in 
service-learning on public lands, and I look forward to working with 
them, and with members of the other body who have a long interest in 
the Public Lands Corps.
    With that, let me turn to Mr. Bishop for any opening comments he 
may have.
                                 ______
                                 

  STATEMENT OF WILL SHAFROTH, DEPUTY ASSISTANT SECRETARY FOR 
  FISH, WILDLIFE AND PARKS, U.S. DEPARTMENT OF THE INTERIOR, 
   ACCOMPANIED BY CHRISTOPHER K. JARVI, ASSOCIATE DIRECTOR, 
   PARTNERSHIP & VISITOR EXPERIENCE, OFFICE OF THE DIRECTOR, 
     NATIONAL PARK SERVICE, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Shafroth. Thank you, Mr. Chairman. My name is Will 
Shafroth, I am the Deputy Assistant Secretary for Fish, 
Wildlife and Parks at the Department of the Interior. Thank you 
for the opportunity to testify here on H.R. 1612, the Public 
Lands Service Corps Act of 2009.
    Before I begin, I would like to introduce the three people 
from the Department of the Interior who have key roles in youth 
service and conservation programs, and they are here to help 
answer any specific questions you or members of the Committee 
may have about their particular bureaus.
    Christopher Jarvi of the National Park Service is Associate 
Director for Partnerships and Visitor Experience; Kevin 
Kilcullen of the Fish and Wildlife Service is Branch Chief for 
Visitor Services for the National Wildlife Refuge System; and 
Mary Tisdale is the Bureau of Land Management's Division Chief 
of Education, Interpretation and Partnerships. So when we get 
to the point where you are asking really specific questions, I 
am going to turn it over to them.
    Mr. Chairman, the Department strongly supports H.R. 1612. 
You already acknowledged Secretary Salazar's commitment to 
this. This commitment goes back 20 years in his professional 
career to try to employ young people in our natural resources 
from all different aspects of our society.
    This bill would strengthen and facilitate the use of the 
Public Lands Corps Program, helping to fulfill the vision that 
Secretary Salazar has for promoting ways to engage young people 
across America to serve their community and their country. 
While we are strongly supportive of the bill, there are a few 
areas where we would like to suggest some changes, and we will 
continue to work with your staff and the Committee to provide 
our recommended changes to you in writing in the very near 
future.
    Congresswoman DeGette, nice to see you. Expanding the use 
of Public Lands Corps could be a particularly important part of 
our overall strategy for increasing opportunities and 
incentives for young people to become involved because this 
program serves other high priority goals as well.
    Besides helping us get much needed work done on our public 
lands, it also provides a way to, first, reconnect young people 
with their natural environment and cultural heritage; second, 
it makes progress on energy conservation and the use of 
alternative sources of energies, another huge priority for 
Secretary Salazar; and third, provide education, training and 
career building experiences, including a pathway to careers 
with Federal land management agencies.
    The Department regards the Public Lands Corps program as an 
important and successful example of civic engagement in 
conservation. The National Park Service in particular has made 
widespread use of the program. Last year the Park Service had 
about 1,500 PLC members working on 178 projects in 99 different 
park units. All three bureaus have been extensively engaged in 
youth programs that have similar goals.
    We think that the changes that would be made under H.R. 
1612 would strengthen and improve the Public Lands Corps in 
ways that would encourage broader agency use of the program. We 
endorse adding the word ``service'' to the name of the program 
to emphasize that aspect of the program. Most PLC projects at 
national parks are designed to address maintenance and 
ecological restoration needs, and those types of projects would 
continue to be done under H.R. 1612.
    However, this legislation specifies a broader range of 
potential projects making it likely that Corps members could 
become involved in more varied activities. We are used to 
thinking of Corps members building trails, but they could be 
doing all sorts of different kinds of projects, such as helping 
develop materials for junior ranger programs, or visitor 
handouts on safety, or working on historical documentation.
    Corps participants would also be able to work for a partner 
organization so long as the work experience is directly related 
to the protection or management of public lands. The National 
Park Service and the Fish & Wildlife Service have a large 
number of partners that would be potential sponsors of young 
people interested in the type of work they might offer.
    The addition of specific authority for agencies to pay 
transportation expenses for nonresidential Corps members is 
critically important because transportation costs may be a 
limiting factor in the participation of economically 
disadvantaged young people. This is something that we learned 
in our work in Colorado, particularly. We found it to be very, 
very important.
    The Department would also benefit from the addition of a 
consulting intern as a new category of service employment under 
the PLC program. These interns would be graduate students who 
would help agencies carry out management analyses, development, 
business plans, things like that, which would also be quite 
important.
    The provisions for hiring successful Corps members 
noncompetitively at the end of their appointment would provide 
the agency with an influx of knowledgeable employees, as well 
as career opportunities for those interested in the agencies' 
mission. The legislation would also encourage bureaus utilizing 
this program to expand the scope of corps programs to reflect 
modern day challenges, such as climate change.
    It would also add incentives to attract new participants, 
especially from underrepresented populations. Mr. Chairman, 
H.R. 1612 proposes many changes to the Public Lands Corps Act 
of 1993 that we strongly support because we think they would 
improve and revitalize the use of this program. However, as we 
have looked closely at the bill, we have identified some areas 
of concern, such as provisions for cost sharing and hiring 
authority, that we want to talk to you more about.
    We want to take a closer look at those areas before 
suggesting potential amendments. As I said at the outset, we 
look forward to working with you and the Committee on this 
bill. Just on a personal note, I want to again express the 
Secretary's strong interest and commitment to this program. 
When he talks to different groups he identifies three programs 
and priorities for him in his time as Interior Secretary: the 
area of energy, preserving our treasured landscapes and 
employing youth.
    So it is one of his top priorities. Every staff meeting at 
10:00 in the morning we talk about it, so it is on his mind. 
Personally, I have worked on these issues since the early 
1990s. I oversaw the California Conservation Corps in my job 
there in the State of California, and since being back in 
Colorado in 1994 have been involved in expanding the 
Secretary's good work in creating the Youth and Natural 
Resources Program in the State of Colorado, but also helping to 
grow and expand a number of youth corps programs throughout our 
state, both at the county and the regional level.
    Mr. Chairman, this concludes my remarks. I would be happy 
to answer any questions from the Committee.
    Mr. Grijalva. Thank you very much. Mr. Kashdan?
    [The prepared statement of Mr. Shafroth follows:]

      Statement of Will Shafroth, Deputy Assistant Secretary for 
       Fish, Wildlife and Parks, U.S. Department of the Interior

    Mr. Chairman, thank you for the opportunity to appear before your 
committee to present the views of the Department of the Interior on 
H.R. 1612, a bill that would amend the Public Lands Corps Act of 1993 
to expand the authorization of the Secretaries of the Interior, 
Agriculture and Commerce to provide service-learning opportunities on 
public lands, help restore the Nation's natural, cultural, historic, 
archaeological, recreational and scenic resources, train a new 
generation of public land managers and enthusiasts, and promote the 
value of public service.
    The Department strongly supports H.R. 1612. This bill would 
strengthen and facilitate the use of the Public Land Corps (PLC) 
program, helping to fulfill the vision that Secretary Salazar has for 
promoting ways to engage young people across America to serve their 
community and their country. While we are strongly supportive of H.R. 
1612, there are a few areas where we would like to suggest some 
changes. We will commit to work with the committee and to provide our 
recommended changes to you in writing in the near future.
Engaging America's Youth Through Service
    While there are other Federal programs that promote service, 
expanding the use of the Public Land Corps could be a particularly 
important part of our overall strategy for increasing opportunities and 
incentives for young people to become involved because this program 
serves other high-priority goals as well. Through it, we could 
reconnect young people with their natural environment and cultural 
heritage; make progress on energy conservation and the use of 
alternative sources of energy; and provide education, training, and 
career-building experiences--and a pathway to careers in Federal land 
management agencies, which are in serious need of new, younger 
employees.
    Secretary Salazar created the Youth in Natural Resources program 
during his tenure at the Colorado Department of Natural Resources as a 
way to educate thousands of young people about Colorado's natural 
resources, and he saw firsthand what a difference it made in their 
lives. From the day he was nominated as Secretary of the Interior, he 
has emphasized that it would be one of his top priorities to find more 
ways to introduce young Americans from all backgrounds to the beauty of 
our national parks, refuges, and public lands and to promote an ethic 
of volunteerism and conservation in the younger generation. Enactment 
of this legislation could pave the way to meeting one of the 
Secretary's top priority goals--to develop a 21st Century Youth 
Civilian Conservation Corps.
Background on Public Land Corps Program
    The Department regards the Public Land Corps program as an 
important and successful example of civic engagement and conservation. 
Authorized by the National and Community Service Trust Act on in 1993, 
the program uses non-profit organizations such as the Student 
Conservation Association (SCA) and other service and conservation corps 
organizations affiliated with the Corps Network as the primary partners 
in administering the Public Land Corps program. In addition, other non-
profit youth organizations such as the YMCA also participate, as do 
local high schools and job-training youth organizations. The youth 
organizations assist the National Park Service (NPS) in its efforts to 
attract diverse participants to the parks by recruiting youth 16-25 
years of age from all socioeconomic, cultural and ethnic backgrounds.
    The National Park Service makes extensive use of the PLC program. 
Projects are funded through recreational fee revenue, with the typical 
project receiving $25,000 from NPS plus a 25 percent match from a 
partner organization. NPS spent $4.1 million on the program in FY 2008, 
which funded about 1,500 young men and women working on 178 projects at 
99 park units. Most PLC projects at parks are designed to address 
maintenance and ecological restoration needs. The NPS also conducts 
other youth service and conservation projects at larger parks which are 
funded out of the parks' own budgets.
    NPS also spent more than $3 million on the Youth Conservation Corps 
program which is a summer employment program for 15-18 year old youth. 
NPS in Fiscal Year 2008 employed 833 youth to work on conservation 
projects across the country. The YCC program has been administered by 
the National Park Service since 1974.
    The Bureau of Land Management (BLM) and the U.S. Fish and Wildlife 
Service (FWS) have a long history of employing youth service and 
conservation corps participants from the SCA, Youth Conservation Corps 
and other organizations for a wide array of projects related to public 
lands resource enhancement and facility maintenance. Though most corps 
are affiliated with the nationwide Corps Network, they are often 
administered at the state, rather than national level. For example, the 
FWS and SCA have partnered for over 20 years to offer work and learning 
opportunities to students. In FY 2007, 122 Conservation Interns served 
at 45 FWS sites in 24 states, contributing more than 80,000 hours of 
work.
    The BLM has engaged the services of SCA interns for many years 
under a longstanding national assistance agreement, then under 
individual state agreements. In 2006, the last year of BLM's national 
agreement, a total of 116 SCA members served at 16 BLM sites in eight 
states. The interns participated in a variety of conservation service 
activities such as recreation and river management, historic building 
restoration and maintenance, seed collection, and invasive species 
control. BLM's Salem Oregon District, for example, hires a mixture of 
Northwest Youth Corps, Clackamas County, and Columbia River Youth Corps 
members each year to perform a variety of activities such as trail 
maintenance and construction.
    The FWS manages 587 units of the National Wildlife Refuge System 
that cover over 150 million acres, as well as 70 National Fish 
Hatcheries, which would directly benefit from programs authorized under 
H.R. 1612. National Wildlife Refuges and National Fish Hatcheries enjoy 
strong relationships with the local communities in which they are 
located, and are involved in many community-based projects that help 
maintain sustainable landscapes. The FWS's work is also supported by 
over 200 non-profit Friends organizations that assist in offering 
quality education programs, mentoring, and work experience for youth.
    In 2007, the FWS employed 496 Youth Conservation Corps enrollees 
and 177 individuals through the Student Conservation Association 
program. Last year, over 39,000 volunteers contributed their time and 
talents to a variety of programs including support for youth education 
projects. Over the past two years the FWS has provided funding for a 
YCC program involving the Mescalero Apache youth at the Mescalero 
Tribal Hatchery in New Mexico. The FWS has working relationships with 
numerous colleges and universities for students interested in pursuing 
careers in fish and wildlife management.
The Public Lands Service Corps Act of 2009
    H.R. 1612 would make several administrative and programmatic 
changes that, in our view, would strengthen and improve the Public Land 
Corps Act. These changes would encourage broader agency use of the 
program, make more varied opportunities available for young men and 
women, and provide more support for participants during and after their 
service. Appropriately, H.R. 1612 would change the program's name to 
Public Lands Service Corps, reflecting the emphasis on ``service'' that 
is the hallmark of the program. President Obama is committed to 
providing young people with greater opportunities and incentives to 
serve their community and country. Through an enhanced Public Lands 
Service Corps, we would be taking a critical first step that direction.
    Key changes that the legislation would make to existing law 
include:
    <bullet>  Adding the National Oceanic and Atmospheric 
Administration, which administers national marine sanctuaries, as an 
agency authorized to use the program;
    <bullet>  Authorizing a departmental-level office at the Department 
of the Interior to coordinate Corps activities within the three land 
management bureaus;
    <bullet>  Requiring each of the three relevant departments to 
undertake a contract for a recruiting program for the Corps;
    <bullet>  Requiring each of the three relevant departments to 
establish a training program for Corps members, and identifying 
specific components the training must include;
    <bullet>  Identifying more specific types of projects that could be 
conducted under this authority;
    <bullet>  Allowing participants in other volunteer programs to 
participate in PLC projects;
    <bullet>  Allowing agencies to make arrangements with other 
Federal, state, or local agencies, or private organizations, to provide 
temporary housing for Corps members;
    <bullet>  Providing explicit authority for the establishment of 
residential conservation centers, and encouraging those centers to be 
constructed using solar and other green technology with the involvement 
of Corps participants;
    <bullet>  Authorizing agencies to recruit experienced volunteers 
from other programs to serve as mentors to Corps members;
    <bullet>  Adding ``consulting intern'' as a new category of service 
employment under the PLC program;
    <bullet>  Allowing agencies to apply a cost-of-living differential 
in the provision of living allowances and to reimburse travel expenses;
    <bullet>  Allowing agencies to provide noncompetitive hiring status 
for Corps members for two years after completing service, rather than 
only 120 days, if certain terms are met;
    <bullet>  Allowing agencies to provide job and education 
counseling, referrals, and other appropriate services to Corps members 
who have completed their service; and
    <bullet>  Eliminating the $12 million authorization ceiling for the 
program.
    We believe that the Department's program would benefit from 
enactment of this legislation. As noted above, most PLC projects at 
national parks are designed to address maintenance and ecological 
restoration needs, and those types of projects would continue to be 
done under H.R.1612. However, this legislation specifies a broader 
range of potential projects, making it likely that Corps members could 
become involved in such varied activities as historical and cultural 
research, museum curatorial work, oral history projects and programs, 
documentary photography, public information and orientation services 
that promote visitor safety, and activities that support the creation 
of public works of art. Participants might assist employees in the 
delivery of interpretive or educational programs and create 
interpretive products such as website content, Junior Ranger program 
books, printed handouts, and audiovisual programs.
    PLC participants would also be able to work for a park partner 
organization where the work might involve sales, office work, 
accounting, and management, so long as the work experience is directly 
related to the protection and management of public lands. The NPS and 
the FWS have a large number of partner organizations that would be 
potential sponsors of young people interested in the type of work they 
might offer.
    An important change for the Department is the addition of specific 
authority for agencies to pay transportation expenses for non-
residential Corps members. Transportation costs may be a limiting 
factor in program participation of economically disadvantaged young 
people.
    Another important change is the addition of ``consulting intern'' 
as a new category of service employment under the PLC program, 
expanding on the use of mostly college-student ``resource assistants,'' 
provided for under existing law. The consulting interns would be 
graduate students who would help agencies carry out management analysis 
activities. NPS has successfully used business and public management 
graduate student interns to write business plans for parks for several 
years, and this addition would bring these interns under the PLC 
umbrella.
    The Public Lands Service Corps would also offer agencies the 
ability to hire successful corps members non-competitively at the end 
of their appointment, which would provide the agency with an influx of 
knowledgeable employees as well as career opportunities for those 
interested in the agencies' mission. Refuges and hatcheries, for 
example, are uniquely qualified to connect with local communities since 
the Service has so many refuges across the country that are located 
near smaller communities and can directly engage urban, inner city, and 
rural youth. For example, partnering academic institutions could offer 
educational programs to enhance the students' work experience, thereby 
providing orientation and exposure to a broad range of career options.
    The legislation would also give the Department's other bureaus that 
would utilize this program the authority to expand the scope of 
existing corps programs to reflect modern day challenges, such as 
climate change and add incentives to attract new participants, 
especially from underrepresented populations.
    An expanded Public Lands Service Corps program would provide more 
opportunities for thousands of young Americans to participate in public 
service while we address the critical maintenance, restoration, repair 
and rehabilitation needs on our public lands and gain a better 
understanding of the impacts of climate change on these treasured 
landscapes.
    Mr. Chairman, that concludes my remarks. I would be happy to answer 
any questions you or the other members of the subcommittee have.
                                 ______
                                 

          STATEMENT OF HANK KASHDAN, ASSOCIATE CHIEF, 
         FOREST SERVICE, U.S. DEPARTMENT OF AGRICULTURE

    Mr. Kashdan. Thank you, Mr. Chairman. Mr. Bishop, other 
members of the Subcommittee, it is a pleasure to be here today 
to talk about amending the Public Lands Corps Act of 1993. It 
is also a pleasure to be here with Mr. Shafroth and the 
Committee that follows, especially Sally Prouty, who has been a 
key member of the corps network and has been a privilege to 
work with.
    I also want to note that there is a class from Montreat 
College in North Carolina in outdoor recreation. That is 
certainly a topic pertinent to this hearing, and we will be 
looking forward to visiting with that class tomorrow in our 
respective offices. Mr. Chairman, let me summarize briefly the 
remarks contained in my testimony.
    First, let me say how proud the Forest Service has been and 
what a strong commitment it has to working with America's youth 
and young adults. I think this has been exemplified in how we 
have worked with the Job Corps Civilian Conservation Program 
for more than 40 years. We will soon be the sole operator of 
all 28 Civilian Conservation Corps centers in the country. It 
is part of that commitment to the nation's young adults.
    We have also worked extensively with other conservation 
corps, and in fact, one of the first projects rolled out under 
the American Recovery and Reinvestment Act was a California 
Conservation Corps project on the San Bernardino which was 
featured last week on prime time nightly news. We have touched 
close to a million young adults with the programs that we have 
been involved in. It is something we have been very proud of.
    We really feel that as the Nation becomes more urban, more 
technology-oriented, there is even a greater need for the 
authority that would be provided in this act. We think we can 
expose tens of thousands of young people each year to the 
issues of climate change.
    We can help people internalize corps facts that we don't 
feel in the heart, and that is that, you know, water comes from 
the natural world, not from the faucet; that the air we breathe 
can be purified by healthy forest ecosystems and even thriving 
trees in big urban environments; that wildfire, although 
dangerous and threatening, can also be good for the land; and 
that the relationship with science and active management can 
work with nature to offer greater opportunities to improve the 
health of our ecosystems.
    I think those broad values are reflected in the amendment 
being considered today. This amendment contains a noticeable 
shift from shovel and maintenance work to emphasis on 
conservation education, green jobs, research and science, 
leadership in the natural resource programs, work and policy 
and analysis, and a particular attention to cultural and 
heritage assets that are so important to the future of our 
country.
    No doubt that this amendment will also help the Forest 
Service with its long-term employment in addressing issues of 
attrition. It is clearly a potential source for many new 
employees. In fact, I might note that Jack Lewis, a district 
silviculturist in Colorado who is here with us on a detail, got 
his start in one of these conservation corps.
    It shows how important these conservation corps can be to 
our future workforce, and a workforce that is highly diverse 
and represents the diverse population of this country, and it 
is just an ideal source for us to tap future employees from. So 
we look forward to continuing to work in this environment with 
both Job Corps and other conservation corps.
    Speaking of Job Corps, the Forest Service has a strong 
capability in the residential aspects that are discussed in 
this bill. Job Corps centers are 24/7 environments serving the 
needs of young adults, and we have a very good capability in 
that area to provide residential experiences as might come from 
this authority. We look forward to particularly lending that 
expertise.
    So we are very supportive, from the Department of 
Agriculture and from the Forest Service, very supportive of 
this amendment. We would be happy to look at and work with you 
on future details, particularly focusing on the direct hire 
authority, length of service requirements and better interfaces 
with the Job Corps Civilian Conservation Program. So, Mr. 
Chairman, that concludes my verbal remarks. I look forward to 
answering any questions you may have.
    [The prepared statement of Mr. Kashdan follows:]

      Statement of Hank Kashdan, Associate Chief, Forest Service, 
                     U.S. Department of Agriculture

    Mr. Chairman and members of the Committee, thank you for the 
opportunity to testify before you today on H.R. 1612, the Public Lands 
Service Corps Act of 2009.
INTRODUCTION
    We think that H.R. 1612 is a timely amendment to the Public Lands 
Corps Act of 1993. The Nation's forests and grasslands are unique and 
special ecosystems that the Forest Service manages to meet the needs of 
present and future generations. These lands yield abundant sustainable 
goods and ecosystem services for the American people. The National 
Forest System lands, managed for multiple-use, sustained-yield is 
indeed a place for the Public Lands Service Corps participants to learn 
and practice an array of conservation, preservation, interpretation and 
cultural resource activities, and take advantage of outstanding and 
unique educational opportunities. Indeed, in West Virginia, Arizona and 
in scores of other states the, Forest Service has benefited greatly 
from the services of the Public Lands Corps project work on National 
Forest System lands.
PUBLIC LANDS SERVICE CORPS ACT OF 2009
    The Forest Service, while not a prolific user of the 1993 Act, 
would be better positioned to increase its use of the Corps under H.R. 
1612. We believe the expanded authority of that would be provided by 
H.R. 1612 will improve the Act by removing the authorization of 
appropriation ceiling and increasing our ability to engage young men 
and women in performing critical work for the Nation.
    The Department strongly supports H.R. 1612. This bill would 
strengthen and facilitate the use of the Public Land Corps (PLC) 
program, helping to fulfill the vision that Secretary Vilsak has for 
promoting ways to engage young people across America to serve their 
community and their country. While we are strongly supportive of H.R. 
1612, there are a few areas where we would like to suggest some 
changes. We will commit to work with the committee and to provide our 
recommended changes to you in writing in the near future.
    By including conservation education, service learning, training and 
promoting the value of public service in addition to ``shovel work,'' 
we are likely to be able to increase our use of Public Land Service 
Corps in a variety of program areas. The expanded authority can give us 
new tools to engage young people in a variety of professional careers 
including resource management, green jobs, visitor and interpretative 
services, conservation education, media production and business skills. 
This authority will further assist the Forest Service in providing 
opportunities on a continuum of outdoor experiences from appreciation 
to employment. It will support understanding of scientific principles 
to enhance environmental literacy--the knowledge and skills needed to 
make informed decisions and become engaged citizen stewards. This 
investment will assist us in our work to provide quality settings, 
services, and programs that maximize the benefits of our public lands 
for the ever-changing needs of Americans, now and into the future.
    This amendment is timely and welcomed. Evidence shows that children 
today are growing up increasingly disconnected from nature. They are 
gravitating away from developing personal connections to their forests 
and grasslands. Researchers report that the gap between kids and 
nature, the ``nature deficit disorder'', has far-reaching and negative 
implications for the health and well-being of our Nation's children and 
the future stewardship of public lands and natural resources. Along 
with responding to climate change and forest water yield and storage, 
the Forest Service is also addressing the issue of ``reconnecting 
people with nature'' especially our children. History will judge the 
conservation leaders of our age, including our own leadership in the 
Forest Service, by how well we inspire our Nation's youth to accept the 
mantle of conservation and natural resource management for posterity. 
Through this amendment, young people will have the opportunity to 
connect with public lands and the natural world and increase their 
understanding of the value of trees, forests, grasslands and the 
conservation management of public lands. Corps members will gain the 
knowledge, skills or inspiration to seek careers in natural resource 
management as well as making informed decisions relevant to forests and 
grasslands in their role for mitigating the looming challenges of 
climate change and prospective water shortages. The Public Land Service 
Corps can be invaluable in our efforts to nurture and to grow the next 
generation of conservation stewards and resource professionals, who 
will have to address and meet these sustainability challenges.
    Forests and grasslands are the natural backyards for many 
communities throughout the United States. The Forest Service is 
uniquely placed to link people with forests and grasslands in order to 
strengthen the economic health of communities over the long-term. The 
Forest Service's programs provide federal leadership in technical and 
financial assistance to landowners and resource managers to help 
sustain the Nation's forests and protect communities and the 
environment from wildland fires. Conservation Education helps people of 
all ages understand and appreciate the Nation's natural and heritage 
resources and how to conserve those resources for future generations.
    Forest Service technical and financial assistance help bring 
communities, groups and businesses together to create diversified 
economic and social activity built on forest resources management and 
conservation. Community-based partnerships, of which the Public Lands 
Service Corps is an example, offer the flexibility and capacity 
building for finding long-term solutions to vexing natural and cultural 
resource challenges. Cooperative and Urban Forestry programs help 
communities become more economically self-sufficient by improving 
competitiveness and offering service learning and employment 
opportunities through stimulating markets for more diverse natural 
resource management, use and conservation.
    National Forest System lands are located in 42 States and the 
Commonwealth of Puerto Rico. These lands and our infrastructure of 
trails, roads and recreation facilities provide opportunities for 
solace and solitude, challenge and risk, hunting and fishing and 
outlets for physical and mental fitness. They connect society to the 
natural world. However, many of our sites and much of our land base and 
infrastructure is in need of restoration or repair and maintenance. For 
example, we currently have an estimated $280 million backlog in 
deferred trail maintenance work. The Public Lands Service Corps can 
assist the agency by addressing this backlog.
    The Forest Service is fully committed to the advancement of young 
people through a variety of conservation projects, training, and 
service learning and conservation education. Along with the Bureau of 
Land Management, we can provide participants with an understanding of 
the agency's history and training on multiple-use and sustained-yield 
management of natural, cultural, historic, archaeological, recreational 
and scenic resources. Our mission, ``To sustain the health, diversity 
and productivity of the Nation's forests and grasslands to meet the 
needs of present and future generations,'' can only be achieved by 
educating future generations and training the future public and private 
land managers. In turn, they will promote the value of public service 
and continue the conservation legacy of natural resource management for 
the United States.
    The Forest Service has in place offices to play a key role in the 
coordination of the Public Lands Service Corps through its National Job 
Corps Civilian Conservation Centers program and other staff. The Forest 
Service National Job Corps Civilian Conservation Centers would likely 
be the coordinating office for Public Lands Service Corps in the Forest 
Service.
    The broader definition of natural, cultural and historic resource 
work under the amendment is beneficial to the Nation's forests and 
grasslands as it provides for a wide variety of different types of work 
across diverse landscapes. This expansion enhances the Forest Service 
ability to instill in a new generation of young men and women, 
including those from diverse backgrounds, the desire to seek careers in 
natural and cultural resource stewardship and public service by 
allowing them to work directly with conservation professionals in land 
management, agencies. This would promote public understanding and 
appreciation of the mission and work of the federal land, coastal and 
ocean management agencies.
    Our history of program delivery through Forest Service Job Corps 
Civilian Conservation Centers and conservation education centers for 
training young people has been a vital tool in reaching more than 6 
million youth of all ages. We appreciate the flexibility of the 
expanded authority in section 205, which would authorize the use of 
residential facilities. The Forest Service Job Corps Civilian 
Conservation Centers have the institutional capacity to operate 
residential facilities successfully. However, there are a number of 
implementation issues that need to be considered in establishing new 
residential conservation centers. These include the costs of operating 
and maintaining the facilities, potential liability issues, and 
questions about the impact on contract and labor laws. We would like to 
work with the committee on addressing these types of issues.
    The U.S. Forest Service has been operating residential Civilian 
Conservation Centers for more than 40 years through the interagency 
agreement with the Department of Labor Job Corps Programs. The 2009 
Omnibus Appropriations Act authorized the Forest Service to operate six 
additional Job Corps Centers formerly run by the Bureau of Reclamation 
in addition to our 22 residential Job Corps Civilian Conservation 
Centers.
    Because the Forest Service has a long history of successfully 
operating residential centers, our employees have extensive experience 
with the unique opportunities and challenges found in youth training 
programs. With our partners, we can confidently leverage our resources 
and expand our ability to develop a well-trained and responsible 
workforce in natural resources and business. Youth will participate in 
community service and restoration and stewardship projects, leadership 
and self-government programs, recreation and team-building and 
independent living skills training.
    The bringing together of diverse backgrounds, ages, cultures, 
education and training skills provides the participants with multi-
cultural experiences and develops awareness and sensitivity for other 
people and cultures that would not be available in a non-residential 
program. Residential centers also create the need for a structured 
behavior management program to ensure the health and safety of students 
and staff.
DEFINITIONS
    The amendment would increase the opportunity for Public Lands 
Service Corps members to leverage their education and work experience 
in obtaining permanent full-time employment with Federal agencies.
    We respectfully suggest that the Forest Service Job Corps at 
Civilian Conservation Centers be recognized as an entity that may carry 
out appropriate natural and cultural resources conservation projects. 
This recognition would clearly link the work and training of the Forest 
Service Job Corps at Civilian Conservation Centers with projects that 
assist in the management of the National Forest System.
CONCLUSION
    Mr. Chairman and Members of the Committee this concludes my 
prepared statement. I am happy to answer any questions that you or 
Members of the Committee may have.
                                 ______
                                 
    Mr. Grijalva. Thank you very much. I have questions but let 
me first of all turn to our Ranking Member, Mr. Bishop, for any 
opening comments that he might have. Thank you. We are going to 
be called to vote in a little while, so hopefully we can get 
through the questions for this first panel so they won't have 
to wait for us. Let me forego my first questions and ask Dr. 
Christensen if you have any questions you might want to ask or 
comments.
    Ms. Christensen. Thank you, Mr. Chairman. I just think 
that, you know, this bill is very timely. We have had some 
experience with some of the conservation corps students in the 
Virgin Islands, and I know that my superintendents at home 
would really welcome the passage of this bill and the upgrade, 
updating of the corps. I do have a question. Just, based on my 
experience with the corps, most of the young people have been 
college students.
    Of course we have a need, as Mr. Kashdan has said, for all 
kinds of skills. I was wondering if there were plans to work 
with technical schools and any collaboration with skill 
centers, technical schools in providing training for some of 
those entry-level positions that these corps students or young 
people might employ in the parks? My superintendent in St. John 
has been interested in starting a job corps, for example, to 
provide him with some young people who could begin to volunteer 
in the parks, perhaps later to move into jobs and then move up 
into the system.
    Mr. Grijalva. If I may, sir. Just for the record----
    Mr. Jarvi. Yes. My name is Chris Jarvi, I am the Associate 
Director for the National Park Service for Partnerships and 
Visitor Experience.
    Mr. Grijalva. Thank you.
    Mr. Jarvi. I also have youth programs. Through the PLC 
program we actually do get not only college students but we 
work through the corps network and 131 conservation corps 
throughout the United States, we get quite a wide variety of 
students and kids out of the inner city that participate in 
these programs. If there are other approaches that we can use 
to recruit participants, we will certainly look into it.
    Mr. Kashdan. And, Ms. Christensen, I might just add that, 
like Mr. Jarvi, there is a wide variety of participants in many 
of the corps networks. I might add that in the Job Corps, of 
the 4,000 to 5,000 enrollees we have, the vast majority would 
not have college degrees. In fact, they would be very 
exceptional if that were the case. So it is very much oriented 
toward creating new directions in their life, as well as new 
and emerging skills that would be so important for future 
careers.
    Ms. Christensen. Thank you. In interest of time, I yield 
back my time.
    Mr. Grijalva. Thank you very much. Mr. Bishop?
    Mr. Bishop. Yes. Let me ask just three simple questions, 
Mr. Shafroth, if I could. I would like to know about the 
programs as far as supervision takes place. I have heard some 
very positive reviews, but I have also heard some concerns that 
the kids who are in this need some kind of supervision, 
sometimes close supervision, and that regular employees are 
taken from their duties to do that. How would this legislation 
address that sort of issue?
    Mr. Shafroth. Want me to take a little stab at that first?
    Mr. Bishop. Go ahead.
    Mr. Shafroth. Mr. Bishop, thank you for that question. Most 
of the work that is done through the Public Lands Corps Program 
is in a way outsourced to a partner organization, like Student 
Conservation Association or one of the other corps networks, 
and the supervision is generally done by those organizations 
that our agencies are partnering with, and so there is a 
relatively small amount of actual supervision that occurs by 
the staff of the National Park Service or the Fish & Wildlife 
Service. Chris, do you want to elaborate on that?
    Mr. Jarvi. Well, that is generally true. With the more 
talented, the more skilled college educated folks, we might 
work directly with them, but for the most part, the supervision 
comes through the various service providers that we work with. 
We have been very satisfied with that and gotten good results.
    Mr. Bishop. Let me talk liability issues with you on a 
later date, if that is OK.
    Mr. Jarvi. OK.
    Mr. Bishop. How would the cost to operate this program 
change under the legislation?
    Mr. Shafroth. Mr. Chairman, Mr. Bishop, we have not done 
our fiscal analysis of the bill at this point. We certainly 
will be doing that as it progresses through the process, but I 
don't have a specific answer for you as we haven't done that 
analysis yet.
    Mr. Bishop. OK. I am only the Ranking Member, I am not the 
Chairman----
    Mr. Shafroth. I know.
    Mr. Bishop.--unless these guys their budget passed. All 
right. Let me ask one last question. In February, I sent the 
Department a request for certain National Park Service 
documents. To date, I have yet to receive any response from 
that request. When will I get that response?
    Mr. Shafroth. I was just made aware of that earlier today, 
Mr. Bishop, and I will make it my business this afternoon to go 
back and talk to the director of the Park Service to expedite 
that process as quickly as possible.
    Mr. Bishop. Thank you. That is all.
    Mr. Grijalva. Ms. DeGette?
    Ms. DeGette. Thank you, Mr. Chairman. I know it seems like 
Colorado is taking over the Interior Department, and that is 
our goal, just so you know. I will say, though, we have some 
excellent, excellent folks going over there and I have known 
Will Shafroth for many years. He is a dedicated public servant. 
I urge everyone on this Subcommittee to get to know him and 
work with him over the following years. I want to welcome you, 
Will, to your new position. We are thrilled to have you.
    I just have one question for the whole panel. I have been 
reading some studies lately that indicate a disturbing trend in 
the last few years where even though our population is 
increasing, and certainly in the western United States our 
population is increasing, nevertheless, usage of our public 
lands is decreasing, in particular by young people. There are 
some worries about this as we go into the years ahead.
    I spent a lot of time talking to George Miller about this, 
in fact. I am wondering if any of our witnesses would think 
that legislation like this bill might bring young people back 
into our public lands, re, or not re, but invest them into 
these areas and start a whole new generation of commitment? For 
any of you.
    Mr. Shafroth. Well, Representative DeGette, first of all, I 
want to thank you for your welcome and thank you for your great 
service to our State of Colorado. Both here and when I first 
met you when you were a member of the State Legislature, you 
have been a great champion for conservation of our natural 
resources. What you talk about is very important, I think. 
There is a book written by a guy named Richard Louv you may 
have read, Last Child in the Woods, that talks about sort of 
the phenomena.
    Like you, I have high school age children, and although I 
make it a point of getting them out in nature, a lot of their 
friends don't. I think we have a generation of young people who 
are not as connected to the outdoors as many in our generation 
were. Chairman and I talked earlier about his interest in this 
subject matter and his own connection to the land. My boss, Ken 
Salazar, has the same kind of connection having grown up in the 
San Luis Valley on a ranch.
    I think it is our duty in many ways to do all the different 
things that we can do to reconnect this next generation of 
Americans back to the land. I think expanding opportunities, 
like the Public Lands Corps, is one way to do it. I think we 
would like to do it in a pretty big way to try to recreate that 
connection, but also, obviously, to do the many things that 
need to be done in our public lands at the same time and 
training young people in these careers and about natural 
resources.
    Mr. Kashdan. I might add, ma'am, that although the Forest 
Service is in the Department of Agriculture, Secretary 
Vilsack's son lives in Colorado, so we are certainly loving 
Colorado too. What you cited is exactly right and it is what 
makes our Kids in the Woods Program and our attention to this 
program so essential because the natural world is so critical 
in meeting the basic needs that are really being challenged and 
that young people, frankly, have such little exposure to.
    I know so many employees in the U.S. Forest Service got 
their interest in working for the Forest Service by some 
contact or some encounter with somebody in the woods, either 
through a conservation corps, or ranger, or that kind of thing, 
and it is just so important, and so it is a major emphasis area 
for the Forest Service and key to, I think, some of our future 
as a nation.
    Ms. DeGette. Thank you. Thank you, Mr. Chairman.
    Mr. Grijalva. Thank you. Ms. Bordallo?
    Ms. Bordallo. Thank you. Mr. Chairman, I want to go on 
record as saying that this is a great program, and I like to 
learn today that expanding the authorities of the Secretary to 
build upon it is certainly something I support. I notice that 
the Secretary of Commerce and NOAA will be included now under 
this expansion authority. How are you going to be working with, 
in particular NOAA, since I am Chair of the Subcommittee on 
Fisheries and Oceans?
    Mr. Shafroth. Well, Representative, they are not able to be 
here today, obviously, but especially I think with the Fish & 
Wildlife Service there is a strong connection in many areas 
along our coasts. The Fish & Wildlife Service's jurisdiction 
and the National Marine and Fisheries Service jurisdiction 
isn't that different.
    We care about spawning areas for fish, or we care about 
restoration of wetlands, we care about restoration of rivers 
and streams. So I think that it will be our duty to make sure 
that we work closely together with them to try to bring them 
into this program so that we are working jointly together on 
accomplishing our mutual ends.
    Ms. Bordallo. So this is occurring now? You are working 
with them?
    Mr. Shafroth. Yes, in many, many ways. On endangered 
species implementation in particular we work closely with them, 
but I also think that to date there hasn't been a strong 
partnership on youth engagement, but I think we need to step up 
and do that.
    Mr. Kashdan. And I would echo that we have obviously a very 
close working relationship with the Department of the Interior, 
but we also work with the National Marine Fisheries Service, 
and this is another partnership we would look forward to having 
develop under this act.
    Ms. Bordallo. Thank you. Thank you, Mr. Chairman.
    Mr. Grijalva. Thank you. Mr. Sarbanes?
    Mr. Sarbanes. Thank you, Mr. Chairman. I want to thank you, 
in particular, for this proposal because reinvigorating any 
program that is getting our young people out into nature is one 
I am a thousand percent behind. As you know, and you have been 
very helpful with this, we have been pushing hard with this No 
Child Left Inside legislation and there is a coalition now of 
about 1,200 organizations across the country supporting that, 
including many who are promoting getting our kids into our 
parks and into that kind of recreational space.
    So I really just want to thank you for joining this effort, 
and supporting it and working hard to make it successful. It is 
as though at a time when there is so much coming at our young 
people from the virtual world in terms of the internet, and 
video games, and television and everything, we are trying to 
bring them squinting out into the light of day to enjoy nature.
    Once they get out there they are going to become engaged, 
and excited and jazzed, and they are actually going to lead the 
rest of us out into our natural spaces, which is what is so 
tremendously exciting. So I am so pleased at this legislation, 
and thank you all for what you are doing to support it. Thank 
you.
    Mr. Grijalva. Thank you, Mr. Sarbanes. Let me thank the 
panelists. Mr. Shafroth, I appreciate you being here today and 
appreciate your comments. There were some additional comments, 
but rather than keep you here after the break when we go to 
vote, they had to do with the question about the expanding the 
program to include older Americans, I would love your reaction 
in writing about that.
    Mr. Shafroth. OK.
    Mr. Grijalva. And the Department level coordinator, why we 
feel that is important, and your perspective and reaction to 
that. Mr. Kashdan, the preferential hiring provisions under 
this legislation, expanding that, redefining the language, your 
reactions and your comments on that. It is a working product, 
as I indicated to you earlier, and we look forward to working 
with you and your staff on the suggestions that you outlined 
today and moving toward mutual accommodations so this 
legislation can go forward.
    Please thank the Secretary for his encouragement on it, and 
thank you very much. We are going to be recessed until after 
votes. Thank you.
    Mr. Shafroth. Thank you.
    Mr. Kashdan. Thank you, Mr. Chairman.
    [Recess.]
    Mr. Grijalva. Let me reconvene the Subcommittee. Thank you 
very much. Appreciate your patience. We will be being yanked, 
well, maybe right now just me will be being yanked out of here 
every hour or so, but I appreciate your indulgence. Let me 
begin with our first panelist, Dale Penny, President & CEO of 
Student Conservation Association and ask for your comments. 
Appreciate you being here. I know you have a guest with you 
that you want to have introduce himself or you can introduce 
him, sir.

     STATEMENT OF DALE M. PENNY, PRESIDENT & CEO, STUDENT 
CONSERVATION ASSOCIATION, ACCOMPANIED BY MARCUS HENDRICKS, SCA 
                          PARTICIPANT

    Mr. Penny. Well thank you, Mr. Chairman. I appreciate very 
much being able to speak with you today and to share this with 
the colleagues on the panel, particularly Sally Prouty, who is 
President of The Corps Network with which SCA does a lot of 
work. My name is Dale Penny, I am President of the Student 
Conservation Association, or SCA. It is a nationwide nonprofit 
organization that since 1957 has engaged more than 50,000 
diverse college and high school students in hands on 
conservation service on America's public lands.
    I applaud the Committee for recognizing both potential and 
the need for an expanded Public Lands Service Corps and for 
hearing testimony on what SCA believes is a particularly timely 
and effective legislative initiative. This act will benefit the 
Nation in three profound ways: by preserving our natural, 
cultural and historical heritage; by providing jobs and job 
training for thousands of deserving young people; and by 
helping a new generation develop the skills and commitment to 
become tomorrow's conservation and environmental leaders.
    I should note that SCA was originally modeled after the old 
Civilian Conservation Corps. It was founded by a young woman in 
college in the 1950s who saw young volunteers as a solution to 
helping the overburdened national parks. She wrote her senior 
thesis on a proposed student conservation corps. The first 
corps members reported to service at Grand Teton and Olympic 
National Parks in 1957.
    Today, SCA is America's leading national conservation 
service corps, annually engaging thousands of young adults and 
teens in parks, sanctuaries and urban communities in all 50 
states. This year alone, SCA members will render more than two 
million hours of service to their nation and their communities. 
Mr. Chairman, the impact that these young people have on the 
land is profound and immediate, but their influence extends 
well beyond the here and now.
    The evidence that conservation service does indeed produce 
ardent stewards and citizens is convincing. A few facts. SCA's 
alumni surveys reveal that some 60 percent of our members move 
into conservation related professions and volunteer in 
conservation endeavors in their home communities. A landmark 
study of SCA and other outdoor programs by Dr. Stephen Kellert 
at Yale showed that 78 percent of participants declared 
themselves more environmentally aware, responsible and active 
as a result of their experience.
    A review of the workforce at the Departments of the 
Interior, Agriculture and others throughout the public and 
private sectors reveals that thousands of SCA alumni are 
employed as rangers, scientists, environmental educators and 
more. In fact, the National Park Service alone has estimated 
that as many as 12 percent of its uniformed employees launched 
their careers through SCA internships.
    No one in this room needs to be reminded that our economy 
and our environment are in crisis. Today's generation knows 
unless we are able to address these issues, and soon, they will 
inherit a host of problems that grow more acute by the day. I 
want to assure you that there is also ample reason for hope. 
Growing numbers of young people across the Nation are eager and 
prepared to respond to a renewed call to service.
    Applications to SCA are now at all time highs; more than 40 
percent ahead of this point last year. Many other conservation 
corps and service organizations are experiencing similar 
growths and surges. An expanded Public Lands Service Corps, 
along with President Obama's Give Act and the bipartisan 
Kennedy/Hatch Serve America Act, when fully funded have the 
potential to chart a new era of citizen service at a time when 
our country and our people need it the most.
    I know this bill is focused on Federal public lands; 
however, to ensure nature's wonders and opportunities are 
available to all populations and to bring a more inclusive 
conservation community, SCA has for many decades focused on 
engaging underserved urban populations. In cooperation with 
city authorities we introduce African-American, Latino, Asian-
American and other young people to their hometown parks and 
encourage them to explore their own unique connections with 
nature.
    We furnish them stipends to make our programs more 
accessible and provide innovative roots to their education and 
to provide them tangible job skills that lead to promising, 
productive careers. I encourage this Committee to join SCA, 
other conservation corps and other youth service programs in 
building bridges between local communities and Federal lands.
    As a proven partner of the bureaus within Interior, 
Agriculture and Commerce and other Federal departments, SCA is 
ready to help fulfill the objectives of this legislation by 
engaging more young people in conservation service, reaching 
out to diverse populations and providing tens of thousands of 
emerging citizens with a direct pipeline to green jobs and 
lifelong stewardship. I have a number of specific comments to 
highlight on key components of this legislation which I will 
submit in my written testimony.
    I wish now to share my time with Marcus Hendricks who is a 
recent SCA member and who is a fine example of the thousands of 
young men and women who will benefit from this bill. We are 
very proud of what Marcus has done and what he is going to do 
with his life, and I would like for you to meet Marcus right 
now.
    Mr. Grijalva. Welcome, Mr. Hendricks, and look forward to 
your comments.
    [The prepared statement of Mr. Penny follows:]

             Statement of Dale M. Penny, President & CEO, 
               The Student Conservation Association [SCA]

    Good afternoon, Mr. Chairman, and the other distinguished members 
of the Subcommittee on National Parks, Forests and Public Lands.
    My name is Dale Penny, and I am president of the Student 
Conservation Association--SCA--a nationwide nonprofit organization 
which since 1957 has engaged more than 50-thousand diverse college and 
high school students in meaningful, hands-on conservation service in 
the very parks, forests, and other public lands within the purview of 
this committee.
    I am grateful for the opportunity to speak with you today. I 
applaud the committee for recognizing both the potential and the need 
for an expanded Public Lands Service Corps and for hearing testimony on 
what SCA believes is a particularly timely and effective legislative 
initiative.
    I should begin by noting that SCA was originally modeled after the 
old Civilian Conservation Corps. More than a half century ago, a 
college student who would become SCA's founder, Elizabeth Cushman Titus 
Putnam, saw young volunteers as the solution to helping overburdened 
national parks. Liz wrote her senior thesis on ``A Proposed Student 
Conservation Corps'' and soon, with the aid of allies including Horace 
Albright, the then-retired director of the National Park Service, the 
first SCA corps members reported for service at Grand Teton and Olympic 
National Parks.
    Today, SCA is America's leading national conservation service 
corps, annually engaging thousands of young adults and teenagers in 
national parks, marine sanctuaries, and urban communities in all 50 
states. This year alone, SCA members will render more than two million 
hours of service to their nation and neighborhoods: aiding endangered 
species, restoring threatened habitats, and addressing the factors 
behind climate change, among many other practices, all to preserve our 
natural and cultural treasures.
    The impact these young people have on the land is as profound as it 
is immediate, but their influence extends well beyond the here-and-now. 
SCA exists to inspire lifelong stewardship in new generations of 
conservation leaders--and with a track record that stretches for more 
than five decades, the evidence that conservation services does, 
indeed, produce ardent stewards is quite convincing.
    SCA's alumni surveys reveal some 60% of our members move into 
conservation-related professions and/or volunteer in conservation 
endeavors in their home communities.
    A landmark study of SCA programs and those of other outdoor 
organizations by Dr. Stephen Kellert of Yale University showed that 78% 
of participants declared themselves ``more environmentally aware'' as a 
result of their experience and 72% noted becoming ``more 
environmentally responsible.''
    And a review of the workforce at the Departments of the Interior, 
Agriculture and others, and throughout the private sector, reveals 
thousands of SCA alumni employed as rangers, scientists, environmental 
educators and more. In fact, the National Park Service alone estimates 
that 12% of its uniformed employees launched their careers through SCA 
internships, and just last year then-NPS Director Mary Bomar declared 
that ``SCA is a real movement in America.''
    Ensuring our young people enjoy a healthy, informed and enduring 
connection to their natural and cultural heritage is essential for 
their own continued well being as well as that of nature itself. Thus, 
the current call for an expanded Public Land Service Corps could not be 
more relevant or responsive. Yet this legislation stands to yield many 
other benefits as well.
    One does not have to spend too much time surveying the American 
landscape to conclude that our economy, as well as our environment, is 
in crisis. Young people, in particular, face suddenly daunting odds. 
Family savings have eroded, household incomes are in jeopardy, and 
student loans are difficult to obtain. All this has put a college 
education--the very foundation of a prosperous adulthood--beyond the 
reach of many. And those fortunate enough to be able to go to school 
are at once confronting the most competitive job market in recent 
memory.
    These same young men and women face bleak environmental prospects 
as well, with the increasing effects of climate change; continuous 
threats to clean air, water and wildlands; and increasing competition 
for our finite resources. Today's generation knows unless we are able 
to address these issues, and soon, they will inherit a host of problems 
that grow more acute by the day.
    At the same time, however, there is ample hope. We know, for 
example, that young people across our nation are eager and prepared to 
respond to a renewed call to service. Applications to SCA are now at 
all-time highs--more than 40% ahead of this point last year--and many 
other service organizations are experiencing similar surges. An 
expanded Public Land Service Corps, along with President Obama's Give 
Act and the bipartisan Kennedy-Hatch Serve America Act, have the 
potential to chart a new era in citizen service at a time when our 
country and our people need it most.
    Conservation service sustains resources, enriches lives, 
strengthens character, and deepens one's commitment to American values. 
It instills a powerful sense of ownership that keeps the ``public'' in 
public lands. And it is a vital leadership model to the country and the 
rest of the world as we broadly foster responsible, participatory 
adulthood.
    SCA is conservation service--and at the same time we are service-
learning. The word ``educate'' comes from the Latin word ``Educatus'', 
meaning to draw or lead out. In the dictionary, the first definition of 
education is ``to develop the person's natural powers through 
experience and example.'' The secondary definition is ``to teach.''
    SCA believes that young people best ``develop their natural 
powers'' in nature, through service--by giving back and working toward 
a goal bigger than self.
    Just as important, expanded conservation service stands to provide 
a new generation with the contemporary green job skills and experiences 
they need to advance toward an emerging green economy--and to advance 
America toward energy independence, a cleaner environment, and more 
responsible consumerism.
    In this area, too, SCA has both the ability to help and the 
perspective to see that conservation service works. By engaging young 
Americans in the stewardship of public lands, we are building lifelong 
conservation leaders, voters, and citizens. We accomplish this across 
all youth constituencies through outdoor service opportunities, career-
focused internships, and skill-building conservation jobs.
    The sponsors and other supporters of this bill deserve tremendous 
credit for seeking to strengthen the Public Land Corps and effectively 
expand it beyond parks to include forests, seashores and other public 
lands. Federal lands have long been--and will continue to be--among the 
largest of SCA partners.
    However, to ensure nature's wonders and opportunities are available 
to all populations, and to bring about a more inclusive conservation 
community, SCA has for some time focused on engaging underserved, often 
ethnic, urban populations. In cooperation with city authorities and 
with the support of corporations and foundations, we introduce African-
American, Latino, Asian-American and other young people of color to 
their hometown parks and encourage them to explore their own unique 
connections with nature. We furnish them with stipends to make our 
programs more accessible, with new innovative routes to extend their 
education, and with tangible job skills that lead to long, promising, 
productive careers.
    Although the city parks of Pittsburgh, Detroit, Oakland, and the 
dozen other municipalities served by SCA are presently beyond the scope 
of this legislation, I want you to know that each year SCA draws 
thousands of diverse participants from these communities, and at every 
step we are engaging, training, and opening professional doors for 
them.
    I further encourage the committee to join SCA in building bridges 
between local communities and federal lands. This could be achieved by 
funding local training programs for city and county parks, with a 
commitment to paid public lands placement in continued training or 
apprenticeships. By initiating engagement with nature at home, the 
individual flourishes, the community benefits, and the participant is 
empowered to go further afield into federal public lands management and 
take their place within an agency workforce that, like many of us, is 
widely approaching retirement.
    SCA is a proven partner of the bureaus within Interior; among other 
roles, we contributed significantly to the implementation of the 
National Park Service's existing Public Land Corps Program. We also 
work closely with Agriculture, Commerce and other federal departments. 
Amid a burgeoning list of needs across the public landscape, SCA is 
qualified and ready to help fulfill the objectives of this legislation 
by engaging more young people in conservation service, reaching out to 
diverse populations, and providing tens of thousands of emerging 
citizens with a direct pipeline to green jobs and lifelong stewardship.
    In closing, there are several specific aspects of the expanded 
Public Land Corps Service Act deserving of special attention.
    <bullet>  This bill recognizes that conservation service benefits 
more than the land. It benefits the communities in which those who 
serve live, the communities surrounding the park or forest, and most of 
all the community at large as conservation service fosters an extended 
practice of selflessness and helping those in need.
    <bullet>  If we are to engage more young people in conservation 
service, we must redouble our recruitment efforts and redouble them 
again. SCA applauds the authors of this bill for including additional 
outreach and we stand ready to assist in this effort in any way we can.
    <bullet>  A lot has changed since passage of the original 
legislation and this is acknowledged through this bill's inclusion of 
educational products such as web content and audiovisual programs. 
Technology can be viewed as the antithesis of nature, but at SCA we 
know today's generation has grown up with cell phones and laptops and 
quite naturally Facebooks, YouTubes and Twitters as part of daily life. 
We must use these modern tools as a bridge to our natural and cultural 
heritage.
    <bullet>  I believe the consulting intern provision of this bill 
has as much potential as any other. For some years, SCA's Business 
Planning Intern program has sent MBA candidates as well as other 
graduate students to national parks as business consultants. 
Increasingly, these students postpone the green that Wall Street 
offers--until recently, anyway--for the green of our national parks, 
bringing with them enhanced efficiency and productivity.
    <bullet>  The provision referencing residential centers addresses a 
significant opportunity to furthering conservation service. At Mount 
Rainier National Park, Delaware Water Gap NRA, and even the historic 
``Blister Rust Camps'' at Yellowstone National Park, SCA restoration 
corps have operated out of existing but closed camps. Utilizing these 
facilities allows park units to mount large-scale service operations 
with small-scale impacts on the environment, augmenting the effort 
staged from more traditional tent camps.
    <bullet>  The explicit expansion of ``public lands'' to include 
seashores, marine estuaries and like resources, as well the specific 
inclusion of the Commerce Department and the National Oceanic and 
Atmospheric Administration are wise and worthy additions. They 
represent irreplaceable economic, environmental and cultural resources 
and enabling these places to benefit from the efforts of the Public 
Lands Service Corps will ensure their health and vitality for many 
years to come.
    <bullet>  The further expansion to the U.S. Geological Survey and 
the Natural Resources Conservation Services is similarly important in 
that it better facilitates the conservation of working lands such as 
farms and ranches: iconic pieces of the tapestry that is the American 
landscape.
    <bullet>  Retaining and expanding AmeriCorps education awards is an 
important factor in allowing middle- and low-income Americans to 
participate on conservation service. From my vantage point, the value 
rendered by these young people is many times that of the award's face 
value, making this modest investment in America's future a monumental 
bargain.
    <bullet>  I am also pleased to see that alumni of the Public Lands 
Service Corps will be afforded a noncompetitive hiring status for two 
years following 960 hours of service which is critical to moving PLSC 
alumni into paid positions. Building on our experience, SCA would 
welcome the opportunity to provide alumni services such as job and 
education counseling to alumni of the Public Lands Service Corps.
    In conclusion, I am in strong support of the aims of this bill, as 
I suspect are the more than 50,000 SCA alumni who have benefited in 
very personal and profound ways from their own conservation service. To 
achieve the legislation's objectives, SCA is prepared to grow to the 
extent that funding will allow. Our recruiting, training, mentoring and 
career counseling services are both proven and scalable. And SCA's 
existing Cooperative Agreements with federal agencies will facilitate a 
simple, rapid, and effective deployment.
    National service is the greatest calling a citizen will ever hear--
and conservation service enables one to make both today and tomorrow 
better for all. Thank you for the opportunity to speak to such a 
sterling and urgent imperative.
                                 ______
                                 

                STATEMENT OF MARCUS HENDRICKS, 
                  GEORGE WASHINGTON UNIVERSITY

    Mr. Hendricks. Thank you, Mr. Chairman. Good afternoon. 
Thank you for the opportunity to testify before you today, and 
thank you, ma'am, as well. My name is Marcus Hendricks and I am 
a sophomore studying mechanical engineering at the George 
Washington University. I grew up in the D.C. area, and I went 
to high school at the School Without Walls. I started working 
with the SCA as a sophomore in high school in order to gain the 
community service hours that I needed for graduation.
    I have since accumulated over 400 hours and strongly 
believe that that community service helped me to get into GW. I 
have now worked on three crews, as well as participated in the 
Conservation Leadership Corps with the SCA. Some of the 
happiest moments of my life took place on those crews, not only 
because of the people that I was working with, but also because 
of the natural environment that I was working in that allowed 
me to take my mind off of stressful things, such as homework 
and school.
    In school, students have the opportunity to enhance their 
classroom learning with outdoor experiences so that they can 
develop a personal attachment to what is learned in the 
textbook or in educational videos. When I proposed going to a 
local national park to my senior class for a field trip they 
said it would be boring, they didn't want to get dirty and they 
were afraid of bugs.
    I believe they missed a valuable opportunity to experience 
a sense of connection that comes with exploring the outdoors or 
taking in the scenery on a hike that one of my crews worked on. 
There is a real potential to connect students with a classroom 
learning in fields such as geography and biology. Instead of 
looking at illustrations of tributaries and ecosystems, it is a 
lot more thrilling to be a part of an ecosystem if you are not 
to careful in a national park.
    If I had my way, this Committee would support any program 
that would expand opportunities for young people to have 
meaningful experiences and connections with the parks and 
public lands that I had with SCA. Thank you for the opportunity 
to speak before you today. I would be happy to answer any 
questions you might have for me.
    Mr. Grijalva. Thank you. Let me now ask Ms. Sally Prouty, 
President & CEO of The Corps Network, and also, you are 
accompanied by a guest that----
    Ms. Prouty. I am. Thank you.
    Mr. Grijalva.--you will introduce. Thank you very much. 
Look forward to your comments.
    [The prepared statement of Mr. Hendricks follows:]

      Statement of Marcus Hendricks, George Washington University

    Good afternoon. Thank you for the opportunity to testify today. My 
name is Marcus Hendricks. I am a sophomore at George Washington 
University, majoring in Mechanical Engineering.
    I grew up in the D.C. area, and went to high school at the School 
Without Walls. I started working with SCA as a sophomore in high school 
to gain community service hours that I needed for high school 
graduation. I have now worked on three crews, as well as participated 
in the Conservation Leadership Corps program with SCA. Some of the 
happiest moments of my life took place in my service in the parks with 
SCA, not only because of the people that I was with, but also because 
the natural environment brought me to a place where we did not consider 
things at home like school- or work-related stress.
    Before my SCA experience, I had very few field trips to national or 
state parks. The ability to work in the parks allowed me to connect 
what I was learning in the classroom with the work I did in the parks. 
For example, I learned that the mountains of Guadalupe Mountains 
National Park in Texas were carved out by large seas that existed 
thousands of years ago, evidenced by fossil remains of sea-based 
animals found in the now desert-like area. Watching videos in my high 
school geography class could not compare with seeing and hearing it 
with my own eyes and ears.
    After planting trees and restoring trails in parks in Texas, West 
Virginia, Maryland, and Washington, DC, I developed a connection to the 
parks that I worked in and those like it. I believe that my service was 
valuable to me for a number of reasons. First, the fresh air found in 
national and state parks is simply amazing compared to the air I am 
used to breathing where I attend college in downtown Washington, DC. 
Also, parks offer a peaceful respite from the everyday stress and 
commotion of the city.
    Second, my desire to protect the parks has increased. I now recycle 
more, refuse to litter, and always want to make sure that I take care 
of green spaces that we all must share. When I participated in a 
Potomac River clean-up event, my crew took several empty trash bags 
with us to the bank of the Potomac and we went to our cleanup site. 
When I got there, I saw so much trash that I was shocked. I could not 
believe that so much trash was left in such a small area along the 
bank. After everyone on our team collected about 3 bags of trash each, 
there was so much more left that I knew that it would take at least 100 
people filling at least 3 bags to make a significant difference in the 
amount of trash that was piled up along the shore. Since that 
experience, I have become a recycling ``junkie''--not only at home, but 
also at school.
    In school, students should have the opportunity to enhance their 
classroom learning with outdoor field trips so that they can experience 
the personal attachment to what is learned in a textbook or in 
educational videos. When I proposed going to a local national park for 
my senior class field trip, several members of my senior class 
immediately turned it down. They said it would be boring, they would 
not want to get dirty, or they would not like being around bugs. I 
believe that they missed an opportunity to experience that sense of 
connection and attachment that comes with exploring outside or taking 
in the scenery on a hike on one of the trails I worked on.
    If I had my way, this Committee would support any program that 
expands opportunities for young people to have meaningful experiences 
and connections to the parks and public lands the way I had with SCA. 
Thank you for the opportunity to speak today.
                                 ______
                                 

        STATEMENT OF SALLY T. PROUTY, PRESIDENT & CEO, 
                       THE CORPS NETWORK

    Ms. Prouty. Thank you. It is a privilege to be here, and we 
appreciate you, Chairman Grijalva, and the members of the 
Committee for the tremendous work. We are delighted with the 
bill that is before us today. My name is Sally Prouty and I am 
President & CEO of The Corps Network. It is my privilege to 
speak strongly in support of this Public Lands Service Corps 
Act.
    I am here on behalf of The Corps Network and the 136 
service and conservation corps it represents and the 26,000 
young people enrolled in those corps. I wanted to note that 
over half of the young people involved in the corps that we 
represent enter the corps without a high school diploma or GED, 
so there is a very wide range of young people that we 
represent.
    I have submitted comments but in the brief time I have this 
afternoon I would like to emphasize why this bill is so 
important, and certainly important to the world of corps that 
we represent. First of all, it will bring much needed resources 
to the tremendous backlogged projects that you all know about. 
It will increase utilization of service and service learning as 
strategies for accomplishing work on public lands.
    It will also introduce more and more diverse young people 
to America's public lands, instilling in them an appreciation 
for nature and enjoyment of healthy recreation and a sense of 
stewardship for our natural resources and the environment. In 
addition, by expanding the noncompetitive hiring status of 
Public Lands Corps members it will bring youth and diversity to 
the land management agency workforce and provide additional 
opportunities for young people, particularly those from 
disadvantaged backgrounds, to pursue good careers in land and 
natural resource management.
    It will raise the profile of the Public Lands Service Corps 
within the relevant agencies and establish coordinators making 
it easier for corps and other youth service organizations to 
participate, and it will help bring corps a proven youth 
development strategy to scale. Today's corps are a proven 
strategy for giving young men and women, many of whom are 
economically or otherwise disadvantaged and out of work, out of 
school, the chance to have a positive impact on their own lives 
and the communities and the environment.
    I would note that we know from random assignment evaluation 
that young people enrolled in corps have substantial earnings 
and employment gains, that risk behaviors decrease and we know 
that findings are most significant for young, African-American 
men. Very interesting that I am sitting here with you today.
    Of the 26,000 corps members currently enrolled, 55 percent 
have no high school diploma, 64 percent report family income 
being below the Federal poverty level, 30 percent have had 
previous Court involvement and at least 10 percent have been in 
foster care.
    Contemporary corps provide thousands of 16 to 25 year olds 
the opportunity to earn a second chance in life through hard 
work and service to their communities. The most important part 
of my being here is that I am seated with James Childress, and 
it is my pleasure to have you meet him as a representative of 
the 26,000 young people that we represent. James?
    Mr. Grijalva. Welcome, Mr. Childress. Thank you for being 
here.
    [The prepared statement of Ms. Prouty follows:]

           Statement of Sally T. Prouty, President and CEO, 
                           The Corps Network

    Good afternoon Chairman Grijalva, Ranking Member Bishop, and 
Distinguished Members of the Subcommittee.
    My name is Sally Prouty and I am the President and CEO of The Corps 
Network. It is my pleasure to be here today to speak in strong support 
of Chairman Grijalva's bill, H.R. 1612, the Public Lands Service Corps 
Act of 2009. I am here on behalf of The Corps Network, the 136 Service 
and Conservation Corps it represents, and the 26,000 young people who 
serve in Corps each year.
    Mr. Chairman, with your approval, I will submit a more complete 
statement for the record. In the brief time I have this afternoon, 
however, I would like to emphasize why this bill is so important:
    <bullet>  It will bring much-needed resources to the tremendous 
backlog of projects needing to be accomplished on public lands;
    <bullet>  It will increase the utilization of service and service-
learning as strategies for accomplishing work on public lands;
    <bullet>  It will introduce more, and more diverse, young people to 
America's public lands--instilling in them an appreciation for nature, 
an enjoyment of healthy recreation, and a sense of stewardship for our 
natural resources and the environment;
    <bullet>  By expanding the non-competitive hiring status of Public 
Lands Corpsmembers, it will bring youth and diversity to the land 
management agency workforces and provide additional opportunities for 
young people, particularly those from disadvantaged backgrounds, to 
pursue good careers in land and natural resource management.
    <bullet>  It will raise the profile of the Public Lands Service 
Corps (PLSC) within the relevant agencies and establish a PLSC 
coordinator, making it easier for Corps and other youth service 
organizations to participate; and
    <bullet>  It will help bring Corps, a proven youth development 
strategy, to scale.
Service and Conservation Corps
History
    As you know, Service and Conservation Corps are direct descendents 
of the Depression-era Civilian Conservation Corps (CCC) that provided 
work and vocational training for unemployed single young men by 
conserving and developing the country's natural resources. Between 1933 
and 1942 when it was disbanded, the CCC employed almost 3.5 million men 
who planted an estimated 2.5 billion trees, protected 40 million acres 
of farmland from erosion, drained 248,000 acres of swamp land, 
replanted almost a million acres of grazing land, built 125,000 miles 
of roads, fought fires, and created 800 state parks and 52,000 acres of 
campgrounds. But the biggest legacy of the CCC may have been the hope 
it provided both the young men and their families.
Today
    Today's Corps are a proven strategy for giving young men and women, 
many of whom are economically or otherwise disadvantaged and out-of-
work and/or out-of-school, the chance to have a positive impact on 
their own lives, their communities, and the environment.
    Of the 26,000 Corpsmembers currently enrolled, approximately 55 
percent have no High School diploma, 64 percent report family income 
below the federal poverty level, 30 percent have had previous court 
involvement and at least 10 percent have been in foster care. 
Contemporary Corps provide thousands of 16-25 year olds the opportunity 
to earn a second chance in life through hard work and service to their 
communities.
    In the Corps model, Corpsmembers are organized into crews of six to 
10 people to carry out labor-intensive service projects while being 
guided by adult leaders who serve as mentors and role models as well as 
technical trainers and supervisors. In return for their efforts to 
restore and strengthen their communities, Corpsmembers receive: 1) a 
living allowance; 2) classroom training to improve basic competencies 
and, if necessary, to secure a GED or high school diploma; 3) 
experiential and environmental service-learning based education; 4) 
generic and technical skills training; and 5) a wide range of 
supportive services. Those Corpsmembers who are co-enrolled in 
AmeriCorps also receive a Segal Education Award upon the completion of 
their service.
    Most importantly, these young men and women learn to value their 
personal contribution, and the importance of teamwork. They experience 
the recognition and pride that comes from making a positive investment 
in their community.
A Research-Supported Strategy
    In February 1997, Abt Associates published a groundbreaking study, 
funded by the Corporation for National and Community Service, on the 
value of youth Corps. The study, ``Youth Corps: Promising Practices for 
Young People and Their Communities'' used rigorous multi-site random 
assignment methodology to document key outcomes, including:
    <bullet>  Significant employment and earning gains for young people 
who join a Corps;
    <bullet>  Positive outcomes that are particularly striking for 
young African-American men;
    <bullet>  A significant reduction in arrest rates among all 
Corpsmembers; and
    <bullet>  A significant reduction in the number of unplanned 
pregnancies among female Corpsmembers.
    The study concludes that, ``Youth Corps are rare among youth-
serving programs in their ability to demonstrate significant and 
positive impacts on participants.''
The Public Lands Corps
Background and Examples
    For nearly three decades Service and Conservation Corps have worked 
in partnership with land management agencies to accomplish important 
work on public lands. Like the CCC of the 1930s, they have introduced 
young people to the great outdoors and provided them with various 
education and economic opportunities.
    Presently, the Department of Interior agencies spend between $5-6 
million on nearly 200 PLC projects with Corps annually. This investment 
in turn, supports nearly 600 corpmembers. Because Corps often bring a 
match, as well as unpaid volunteers from local communities, much more 
work is actually being supported.
    PLC crews do everything from building trails and wheelchair 
accessible facilities to providing visitor services and environmental 
education to local school children. In recent years, due to an 
intentional focus on wildland fire mitigation, many crews have done a 
significant amount of hazardous fuels reduction, invasive species 
removal, and habitat restoration. Some specific examples of these 
projects include:
    For over 15 years, the Washington Conservation Corps (WCC) has 
partnered with Olympic National Park on a variety of fire abatement 
activities. Each year, WCC crews remove hundreds of downed old growth 
trees in an effort to reduce fire fuels and increase access.
    The California Conservation Corps (CCC), has a dedicated 18-person 
fire crew that partners with Whiskey Town National Park located outside 
of Redding, CA. For eight years, under the guidance and training of the 
National Park Service, this crew has performed controlled burns, 
removed hazardous fuels and cuts fuel breaks.
    The Southwest Conservation Corps (SCC), based in Durango, CO, works 
with Mesa Verde National Park on wildfire mitigation. Mesa Verde has a 
significant history of wildfire, especially in recent years. When the 
Park needed assistance in removing hazardous fuels from key areas in 
advance of the Park's 100th anniversary celebration, the entire SCC 
crew received 40 hour chainsaw training and certification
    The Coconino Rural Environment Corps (CREC), based in Flagstaff, 
AZ, thins hundreds of acres of federal, state, county, city, and 
private lands every year. Much of this wood is then turned over to 
local Native American communities for firewood.
    The Alaska Service Corps (ASC) was tasked with a week-long invasive 
removal project in one of Alaska's premiere National Parks, Wrangell 
St. Elias. The ASC crew help eradicate White Sea Clover & other 
invasive plants from key areas near the Slana Visitor Center. The ASC 
crews' efforts allow native plants opportunities to reseed and enhance 
the experience for residents and tourists.
    The Western Colorado Conservation Corps (WCCC), based in Grand 
Junction, Colorado, has been actively involved in Tamarisk removal for 
several years. The WCCC has partnered with the Colorado State Parks 
Department and the state Division of Wildlife, the Audubon Society, and 
the Tamarisk Coalition to control acres of Tamarisk and Russian Olive, 
Hounds Tongue, Canada Thistle and other species, as well as 15 miles of 
Salsafy, Russian Thistle, and Storks Bill.
The Need for Expansion
    Despite all of the important work currently being supported by PLC 
funds, much more needs to be done. Estimates of the backlog on public 
lands (controlled by both the Department of Interior and the Forest 
Service) now reach up to $16 billion. In addition, according to the 
Forest Service, nearly 200 million acres of public land are at 
increased risk of catastrophic wildfire and according to the Department 
of Agriculture, invasive alien plant infestations cover 100 million 
acres (an area twice the size of Delaware) and are spreading at a rate 
of 14 percent per year. At the same time, a large percent of public 
land agency professionals are nearing retirement.
    Potential exists in today's young people. They want to give back. 
The Southwest Conservation Corps, which received 20 applications a week 
in 2008, is receiving 100 applications a week in 2009. The Coconino 
Rural Environment Corps is getting three to five times more 
applications than it has spaces available. Some of the interest is the 
result of high unemployment--but some is the desire to do work that 
makes a positive difference for communities and the environment. H.R. 
1612 recognizes the need to offer opportunities to those young people, 
as well as to those who are part of the high school dropout epidemic.
    Nearly one-half of minority students and almost one-third of all 
public high school students fail to graduate with their class. Research 
strongly suggests that public land opportunities can make a significant 
difference for these young people. According to a 2006 report by Civic 
Enterprises, The Silent Epidemic: Perspectives of High School Dropouts, 
dropouts want ``real world opportunities'' and a more challenging 
curriculum to keep them engaged in school. A follow up study, Engaged 
for Success, showed that students believe service learning would keep 
potential dropouts engaged in school. Our public lands can provide such 
experiences for students in underperforming districts.
    Engaging these young people, many of them from low-income and 
minority communities, can be a way to help to diversify public lands 
personnel, to develop the ethic of stewardship among these populations, 
and to attract larger numbers of minorities as visitors, enabling them 
to embrace their natural patrimony.
Conclusion
    The Public Lands Service Corps Act would simultaneously address 
these problems as well as others. Expanded authority would enable PLC 
work to be done on more public lands. Increased funding would support 
many more Corpsmembers, reduce the backlog of deferred maintenance 
projects, and help prepare our public lands for the 21st century.
    Meanwhile, the Corpsmembers could, in turn, utilize their 
AmeriCorps Education awards and the expanded non-competitive hiring 
authority contained in this bill to pursue careers in land management--
thus building and diversifying the next generation of the resource 
management workforce.
    Mr. Chairman, thank you for the opportunity to testify. On behalf 
of the entire Corps Network, I again want to express our appreciation 
and support for H.R. 1612. We look forward to working with you to see 
it enacted into law.
                                 ______
                                 

                 STATEMENT OF JAMES CHILDRESS, 
          CIVILIAN CONSERVATION CORPS OF WEST VIRGINIA

    Mr. Childress. Thank you, Mr. Chairman. Good afternoon. 
First, I would like to thank you for inviting me and allowing 
me to be here with you today. My name is James Childress and I 
am a corps member with the Citizens Conservation Corps of West 
Virginia. Prior to coming to the corps, I was in the wrong 
crowd. Smoking, drinking, staying out late and sometimes not 
even coming home had me going down a dark path fast.
    I found myself at a time not wanting to get up in the 
morning. My home life was stressful. My parents were going 
through a divorce. My two younger brothers needed somebody to 
look to and I was not there. I had just graduated from high 
school in Beckley and I needed to figure out what was I going 
to do next. A friend of mine from a local church knowing my 
situation and wanting to help me avoid a total disaster 
suggested I should apply for a position with the corps.
    I had thought about the military but I was not ready to 
take that step yet and I thought I was needed at home. I joined 
the corps in June of 2007, and little did I know what time and 
impact it would have on my way of thinking about my future. I 
began with the CCCWV working in the New River Gorge National 
Park working in teams of four, and sometimes five. Under the 
direction of a crew leader we planted trees, maintained many 
trails, restored historical buildings and built many bridges.
    The following year I was placed on a spray crew. Being on 
this crew was a new experience for me but I learned a lot, like 
about invasive plants and species and the damage they can cause 
the native species and their habitats. I also learned about 
pesticides and how to apply them safely. While I was in high 
school it became clear that I did not do my best in a 
traditional classroom setting, but I was a sight learner, and I 
learned best by having people show me because everything I do 
at the CCCWV involves hands-on or sight learning and so far I 
have been able to excel.
    Prior to joining the CCCWV I spent little time outdoors. 
Now I love nature. By being in this organization I was able to 
see places that many people my age are not able to see today, 
and it is important to me and I know how to take care of it. 
Before joining the corps the only kind of power tool I have 
ever used was a push mower in my front and back yard. I am now 
excited if I was to use a chainsaw, pesticide spray, a zero 
turn commercial grade lawnmower and other tools.
    These certifications and all of this experience will make 
me an attractive future to future employers. I have also 
developed a number of skills that will help me in the 
workforce, such as teamwork, problem solving, personal 
responsibility and pride in workmanship. Perhaps, but most 
importantly, I have learned a lot more about myself as to what 
I like, and what I want to do and what I can achieve if I focus 
and push myself to do it.
    I am still currently working for the CCCWV and through my 
corps service I have successfully earned an Americorps 
education award to help me pay for higher education. In the 
future, I hope to use that award to study for mechanical 
engineering. I have benefitted so much from my experience and 
working on the Public Lands Corps projects because I was 
challenged and exposed to all kinds of things.
    Because of this experience I have now a greater respect for 
the natural beauty in or public lands which will make me a 
better steward of those lands. I hope that this bill passes so 
more young people like me can have the same opportunity. Thank 
you.
    Mr. Grijalva. Thank you very much. It seems that based on 
the experience that the young people that work on this end up 
going into mechanical engineering. Let me now pass on Ms. Sally 
Jewell, President & CEO, Recreational Equipment, Inc., National 
Parks Conservation Association. Thank you for being here and 
looking forward to your comments.
    [The prepared statement of Mr. Childress follows:]

       Statement of James Childress, Civilian Conservation Corps 
                            of West Virginia

    Good afternoon,
    First I would like to thank you for inviting me and allowing me to 
be here today.
    My name is James Childress and I am a corps member with the 
Citizens Conservation Corps of West Virginia. Prior to coming to the 
Corps I was in the wrong crowd. Smoking, drinking, staying out late and 
at times not even coming home, had me going down a dark path fast. I 
found myself not wanting to get up in the morning, my home life was 
stressful, my parents were going through a divorce, my two younger 
brothers needed someone to look up to and I was not there for them. I 
had just graduated from high school in Beckley and needed to figure out 
what I was going to do next. A friend of mine from a local church, 
knowing my situation and wanting to help me avoid total disaster; 
suggested I apply for a position with the Corps. I had thought about 
the military but I was not ready to take that step and I felt I was 
needed at home. I joined the Corps in June of 2007 and little did I 
know at that time what an impact it would have on my way of thinking 
and my future.
    I began with the CCCWV working in the New River Gorge National 
Park. Working in teams of four and sometimes five, under the direction 
of a crew leader, we planted trees, maintained many trails, resorted 
historical buildings, and built bridges.
    The following year, I was placed on a spray crew. Being on this 
crew was a new experience for me, but I learned a lot, like about 
invasive species and the damage they can cause to native species and 
their habitats. I also learned about pesticides and how to apply them 
safely.
    While I was in high school, it became clear that I did not do my 
best in a traditional classroom setting--I was a sight learner and I 
learned best by having people show me. Because everything I do at CCCWV 
involves hands on or sight learning, and so far I have been able to 
excel.
    Prior to joining the CCCWV, I spent little time outdoors. Now I 
love nature, and by being in this organization I was able to see places 
that many young people my age do not to see and I understand its 
importance and I know how to take care of it. Before joining the Corps 
the only kind of power tool I had ever used was a push mower on my 
front and back yard. I am now certified to use a chain saw, a pesticide 
sprayer, a zero-turn commercial grade lawnmower, and other tools. These 
certifications and all of this experience will make me attractive to 
future employers.
    I have also developed a number of skills that will help me in the 
work force, such as teamwork, problem solving, personal responsibility, 
and pride in workmanship. Perhaps most importantly, I've learned a lot 
more about myself--what I like and want to do, and what I can achieve 
if I focus and push myself to do it.
    I am currently still working for the CCCWV. Through my corps 
service have I successfully earned an AmeriCorps Education Award to 
help me pay for higher education, and in the future I hope to use that 
award to study mechanical engineering.
    I have benefitted so much from my experience in working on public 
land corps projects because I was challenged and exposed to all kinds 
of new things. And because of this experience I now have a greater 
respect for the natural beauty in our public lands which will make me a 
better steward of those lands. I hope that this bill passes so more 
young people like me can have the same opportunity.
    Thank you!
                                 ______
                                 

   STATEMENT OF SALLY JEWELL, PRESIDENT & CEO, RECREATIONAL 
   EQUIPMENT, INC., NATIONAL PARKS CONSERVATION   ASSOCIATION

    Ms. Jewell. Thank you, Mr. Chairman. I am a mechanical 
engineer, and I am delighted that Marcus and James have picked 
that as their profession. It is a great degree. I am here 
representing the 340,000 members of the National Parks 
Conservation Association, but in my day job as CEO of REI, we 
sell a lot of outdoor equipment to people who love and enjoy a 
healthy environment for renewal and recreation so this is 
tremendously important to us.
    I will also say that at REI we work with a lot of nonprofit 
organizations, like the Student Conservation Association and 
many members of The Corps Network in states across this 
country, to do service on public lands. Last year about 1.5 
million hours of service on public lands. So these 
organizations the young people represented up here are 
represented by organizations like them across this country and 
the amount of work that they do is nothing short of amazing.
    You can go back to our wonderful national park network from 
Mt. Rainier National Park in my neck of the woods, to Grand 
Canyon, to Shenandoah, and see the work that was done by young 
people in the 1930s. You can see it in places like Moran State 
Park near me in the San Juan Islands, or even Sherman Rock, 
which is a climbing rock built by the Civilian Conservation 
Corps in a local city park very close to my house in Seattle.
    These kinds of projects connect people for life to the 
places. James and I were talking a minute ago, and I saw Marcus 
a week and a half ago as we were working on the future of the 
national parks, and they both talk about that bridge they built 
being their bridge and the connection that you get to that 
place that you work on.
    Dan Evans, probably the most famous politician ever--sorry, 
Jay, you are not there yet, but you will be--from the State of 
Washington, three term Governor and replaced Scoop Jackson as 
Senator, told me not too long ago that when he drove along I-90 
in what we call the Mountains to Sound Greenway he always 
looked for his tree. I said your tree? He said, yes. I planted 
the tree as a Boy Scout when I was 10 years old and that tree 
is now 73 years old.
    So stories like that give people a connection to place. I 
so appreciate, Chairman Grijalva, you and Chairman Rahall for 
introducing this bill and making public lands a part of the 
service corps acts that are currently going through, or have 
just passed, Congress. My son, Peter, worked for three years as 
a volunteer climbing ranger alongside Mike Gauthier, a former 
climbing ranger who is actually sitting in the corner of the 
room over there.
    Mike is on the Bevinetto Fellowship for two years here. His 
work in Mt. Rainier National Park engaging young volunteers 
changes lives and the budget, and the support for those kinds 
of programs do make an enormous difference. So we are in an 
interesting time right now with a tough economy, with 
increasing levels of unemployment and underemployment, both 
young people and older Americans.
    We have a dearth of diversity on our public lands, our 
public lands are not represented by the people who represent 
this country, and we have parks, public lands and open spaces 
that are desperately in need of help, and so this bill, I 
think, represents a trifecta of opportunity to solve this.
    It engages the incredible diversity of this nation by 
making a connection to public lands, it provides opportunities 
for employment when we really need them, not only for young 
people, but also for older Americans who have a tremendous 
amount of skill, and labor and love of this land to give back, 
and it brings our national parks and our public lands back with 
some chronically needed tender loving care. They are in fact 
falling apart.
    If you prepare for the centennial of our national parks in 
2016, there is nothing, I think, that could be more impactful 
than putting young people alongside older people to work on 
these important places to really start this second century of 
the National Park Service in the time when our public lands is 
so important on the radar for all Americans. So I appreciate 
very much the tremendous effort you have made in putting this 
bill forward, and I give it my whole-hearted support and look 
forward to helping get it passed. Thank you.
    Mr. Grijalva. Thank you. Mr. John Reynolds, Coalition of 
National Park Service Retirees. Welcome.
    [The prepared statement of Ms. Jewell follows:]

                  Statement of Sally Jewell, Trustee, 
                National Parks Conservation Association

    Good afternoon. My name is Sally Jewell, and I am pleased to be 
invited to testify as a trustee of the National Parks Conservation 
Association (NPCA) to discuss H.R. 1612, the Public Lands Service Corps 
Act of 2009. For the information of the subcommittee, in addition to my 
position as a member of the NPCA Board of Trustees, I am President and 
CEO of outdoor retailer Recreational Equipment, Inc., so our National 
Park System and public lands have a great deal of significance to me 
personally and professionally. As you know, the nonprofit National 
Parks Conservation Association has served as the leading citizen voice 
on behalf of our national parks since 1919. It is a privilege to be 
here today on behalf of NPCA's 340,000 members to express our strong 
support for H.R. 1612, the Public Lands Service Corps Act of 2009.
    I want to begin by first thanking Chairman Grijalva and Chairman 
Rahall for introducing this important legislation. H.R. 1612 seeks to 
benefit our national parks and other public lands by unleashing the 
spirit and energy of committed Americans who, working with their 
government and non-profit organizations, can help our nation capitalize 
on the potential for our national parks to produce significant civic 
benefits, stimulate local economies, educate Americans about our shared 
heritage, and protect our national treasures for the use and enjoyment 
of our children and grandchildren. The Act builds upon the Public Land 
Corps Act of 1993 by facilitating valuable new service-learning 
opportunities, enhancing mechanisms to help restore the nation's 
natural, cultural, archaeological, recreational, and scenic resources, 
providing for the training of a new generation of public land managers 
and enthusiasts, and by promoting the value of community and national 
service. H.R. 1612 complements the GIVE Act and Serve America Act, 
which passed the House and Senate and is on its way to the President, 
which includes a Clean Energy Corps that will work in partnership with 
the Public Lands Service Corps.
    NPCA has been calling for the creation of a new National Parks 
Service Corps in order to foster additional national and community 
service in our national parks and help ready the national parks for 
another century of service to our nation and the world. H.R. 1612 
responds to and expands this vision to include all Interior and 
National Forest-managed lands, and areas under the jurisdiction of the 
National Oceanic Atmospheric Administration. The legislation also 
rounds out the expansion of national and community service under the 
GIVE and Serve America Acts with a robust commitment to service that 
would help the National Park Service to address the needs of our 
national treasures and would foster stronger connections between 
national parks, visitors, and our national community.
Enhanced Service Opportunities Help Address Critical Economic Needs
    These are challenging times for our National Park System and our 
country. This subcommittee is well aware that an annual operating 
shortfall, estimated at $750 million, and a maintenance backlog of 
approximately $9 billion, continue to undermine the ability of national 
park managers to protect the natural and cultural resources in their 
charge. We have begun to make some progress in the last couple years, 
but there remains much more to do. Furthermore, as our troubled economy 
staggers, unemployment rates are continuing to rise.
    In February, nationwide unemployment reached 8.1%, with youth 
unemployment at 21%. Unemployment rates for African-American youth 
hovered around 39%, with rates for Hispanic and Latino youth at about 
25%--both up 7 points from February 2008. Unemployment rates for 
college graduates are increasing significantly, as they are with 
Americans over age 55. National service cannot cure these problems. 
However, the tight job market, coupled with the president's call for 
people to serve, is already creating tremendous demand for meaningful 
service opportunities, and H.R. 1612 can provide such opportunities in 
a manner that helps address continuing, significant needs on our public 
lands. Such levels of unemployment remind us of the days of the Great 
Depression, when Franklin Roosevelt created the Civilian Conservation 
Corps to marry two destabilized resources--young men out of work and 
school and diminished natural resources on our public lands and in 
agriculture.
    In tough economic times, our nation has mobilized millions of 
people to conserve and protect its most vital resources, producing 
lasting benefits for society and providing individuals with 
opportunities and new skills. The Public Lands Service Corps can do 
this and more, by employing people from the most vulnerable sectors of 
our economy in jobs that would enhance their future employability, 
invigorating them with an enhanced sense of civic pride, and supporting 
President Obama's call for people to serve.
American Public Supports Service in Our National Parks, Public Lands
    The American people are ready for this kind of commitment. 
Americans strongly support our national parks, and want to engage in 
their protection. In fact, an extensive poll by Peter D. Hart Research 
Associates and McLaughlin & Associates, which NPCA commissioned in 
2008, found that more than four in five voters believe that it is 
important for the federal government to protect and support national 
parks and national historic places. That poll also found significant 
concern about the failure of funding of our national parks to keep up 
with what's needed, the shortage of needed staff at parks and historic 
sites, and the need to be sure parks could serve school groups. 
Finally, it showed that more than 1 out of every 3 Americans are 
motivated to roll up their sleeves and get involved--a tremendous 
finding for a poll of this type, and one that shows the continuing 
affection of our society for our national treasures.
    NPCA has called for the addition of at least 10,000 new, full-time 
equivalent service positions to be devoted to work in our national 
parks within the next few years, through an expansion of the Public 
Land Service Corps and through a cooperative agreement between the 
Department of the Interior and the Corporation for National and 
Community Service. H.R. 1612 broadens this vision to also include other 
public lands, and we support that breadth so as to provide a broader 
geographic distribution of service opportunities and to help address 
needs and opportunities on all public lands--as long as it maintains 
the commitment to our national heritage.
Service in Public Lands Improves Individual Lives, Communities, 
        National Heritage
    NPCA believes that service legislation relating to our national 
parks should focus on five basic principles: (1) addressing resource 
protection and fiscal needs in the parks; (2) enhancing multi-
generational service opportunities; (3) building strong community 
partnerships; (4) developing the next generation of diverse National 
Park Service leaders; and (5) a strong emphasis on cultural, historic, 
and civic impacts. H.R. 1612 takes important steps in this direction, 
and we have several modest suggestions to make it even stronger.
    With the addition of significantly more service employment 
opportunities in national parks, along with supervisory capacity for 
the National Park Service, we can make genuine headway on a variety of 
maintenance and conservation-related projects. For example, service and 
volunteerism are ideally suited to projects designed to eradicate many 
invasive species, replant native vegetation, and control erosion. The 
human power brought to bear under the Civilian Conservation Corps in 
the 1930s, when CCC participants planted over 3 billion trees and built 
over 97,000 miles of roads in national parks and on public lands 
throughout the nation, provides a compelling example. Service Corps 
members can rehabilitate campgrounds and deteriorating structures 
throughout the National Park System, renovate and help maintain 
historic sites, and help conduct natural and cultural resource 
management, science and research projects. In addition, the Act 
provides an important focus on marine resources and climate change.
    By expanding the potential duration of service corps participation 
to two years, H.R. 1612 enhances the ability of the National Park 
Service to manage and capitalize on the opportunities service presents 
through fostering non-episodic volunteering to the greatest extent 
possible. The GIVE Act and its Senate counterpart, the Serve America 
Act, are designed to with the goal of fostering long-term, consistent 
service work, and H.R. 1612 can accomplish the same. That means 
fostering service work that lasts more than a couple days. The longer 
individuals serve, the more highly trained they may become. This means 
greater impact on parks and communities, both over the short- and long-
term. In addition, service corps participants can and should leverage 
and help manage additional volunteerism. To the extent such individuals 
can be trained to coordinate additional volunteers, the service corps 
will facilitate even more community engagement capacity than stipended 
corps members, alone, will provide.
    Many community organizations, including those testifying today, 
have excellent track records running programs that provide supervised 
opportunities for many weeks or months. Their capacity and 
infrastructure are also scalable, allowing them to ramp up the number 
of participants in the service corps without the need for costly new 
bureaucracy. In addition, some also run residential operations, and 
could do so at some facilities rehabilitated in the national parks for 
this purpose.
    It is hard to overemphasize the effect service can have on the 
lives of those who undertake it, not to mention the people and 
resources who directly benefit from it. The youth of today are in 
danger of becoming the most disconnected generation from nature in our 
history as a nation. They are not benefiting from the magic of national 
parks and other natural areas that comes from experiencing them first-
hand. There are many reasons for this: over-scheduling of activities, 
economics, the decline in the time families have to travel, lack of 
outside play, and more. But when young people are given an opportunity 
to work in a park, they develop a very deep sense of ownership and 
connection to that place, to other national parks, and to the natural 
world, as well as experience many other benefits.
    A few years ago, Washington State's former governor and senator, 
Dan Evans, told me how he always looks for ``his tree'' when he drives 
along I-90 in the Mountains to Sound Greenway. He planted that tree as 
a boy scout at 10 years old and the tree is now 73 years old. To me, 
that is a powerful example of the strong connectedness we feel when we 
work on behalf a special place. There are countless other stories of 
those who have undertaken some form of service work, from the bonds 
participants in the Civilian Conservation Corps forged with our 
national parks and forests, to the volunteers who already give of 
themselves to make our national parks what they ought to be.
    Nearly 170,000 people volunteer to work for the Park Service each 
year. The hours these individuals render and the contributions they 
make are of an invaluable service to our national parks, and yield 
tremendous pride and connectedness to our parks and to our country. 
Yet, when parks lack sufficient funding, they often find themselves 
without the staff to recruit, train, and manage volunteers. Leveraging 
additional volunteer support and engagement is exactly the kind of 
utility that Public Lands Service Corps members, once trained, could 
bring to the National Park Service, the Forest Service, and NOAA. It is 
also fundamentally important that adequate funding and support 
personnel be provided to ensure that component of the Service Act 
succeeds.
    One way to augment this capacity, and an opportunity for enhancing 
H.R. 1612, relates to so-called ``experienced Americans.'' H.R. 1612 
attempts to get at this through a new mentorship authorization, which 
we strongly support. Encouraging older Americans like Volunteers in 
Parks, military retirees and veterans to help train service corps 
members and lead crews will tap the know-how of many thousands of able 
individuals who have much to contribute. Yet, we see additional 
opportunity to encourage service work by experienced Americans.
    AARP recently commissioned a report, entitled More to Give, which 
details the tremendous untapped potential of older Americans for 
service. An extensive survey of 44-79 year olds, whom the survey dubbed 
``experienced Americans'', found that ``55 percent believe they will 
leave the world in worse condition than they inherited it, while only 
20 percent believe they are leaving the world in better condition.'' It 
also found that those most engaged in volunteer work feel more 
optimistic about the future. The survey also found that financial 
wherewithal can be an important barrier to older Americans serving as 
volunteers.
    As is the case with youth, stipends can enable older Americans to 
serve. In addition, according to the survey, ``more than half of all 
Experienced Americans (51 percent), including 55 percent of Baby 
Boomers, said that education awards they can earn and give to a child 
in exchange for significant levels of volunteer service would have a 
big or moderate impact on their participation in volunteer 
activities.'' Such incentives were particularly appealing to Hispanics 
and African-Americans.
    As a consequence, the GIVE and Serve America Acts authorized a 
transferable education award for older Americans who participate in 1-
year ``Encore Fellowships'' to carry out projects in areas of national 
need. Fellowships go to individuals 55 and older who engage in full- or 
part-time service in the nonprofit sector or government, and are 
designed to capitalize on the additional skills set and experience that 
participants have to offer. NPCA believes that the Public Lands Service 
Corps Act should encourage greater participation among older Americans, 
including eligibility for Encore Fellowships or some other means of 
making transferable education awards available to them, which they can 
use themselves or transfer to a grandchild. The existing law already 
provides for AmeriCorps education awards in approved Public Land Corps 
positions. The addition of an Encore-like provision would ensure that 
the Public Lands Service Corps tracks the opportunities that are being 
made available in other national volunteer programs. Importantly, the 
More to Give survey showed ``volunteer senior ranger'' to be among the 
most popular volunteer activities for Experienced Americans. When asked 
what kind of service they would like to do, millions of Experienced 
Americans chose serving in our national parks.
    The Public Lands Service Corps Act clearly contemplates valuable 
service learning opportunities--an emphasis NPCA strongly supports. 
Nonetheless, we would also like to see this role further emphasized. 
Providing for greater participation of experienced Americans, together 
with the creative deployment of younger participants, creates 
additional opportunity to enhance service learning capacity and 
opportunities in national parks. For example, the service corps should 
be expected to foster the greater use of service-learning projects 
linked to classroom learning in history, biology and civics. While the 
authorization contemplates a preference for service learning 
activities, it should be made clear that such efforts are a central 
purpose of the service corps, in addition to its important resource 
protection and restoration mandates. In addition, the law can provide 
for greater use of service corps participants in serving the public. 
While NPCA agrees that individuals without sufficient training should 
not be providing interpretation that should be provided by experts, it 
is important to provide a reasonable measure of flexibility in 
appropriate circumstances.
    NPCA also believes that the bill's well-intended restrictions on 
how service corps participants can engage in interpretation-related 
activities go a bit too far. We agree that interpretive programs should 
be conducted by trained professionals, and we support the bill's 
reference to properly supervised corps members providing orientation 
and information services, and playing other appropriate interpretive 
roles. Something that is not apparent from the language of the bill, 
however, is the degree to which service corps members would be 
authorized to reach out to schools and afterschool and youth-serving 
community-based organizations, provided they are properly supervised. 
Clearly, there is no substitute for trained Park Service personnel. 
However, the service corps can do more to augment that capacity. Some 
older members of the corps may very well have training that could be 
capitalized upon, rather than artificially restricted. In addition, by 
expanding the breadth of participation for older Americans in this 
area, H.R. 1612 could further enhance capacity and service. In 
addition, we suggest that the bill be amended to encourage the use of 
appropriately trained service corps members for multilingual services 
to visitors and outreach to diverse communities.
    Among the most important elements of the Public Lands Service Corps 
for the National Park Service is its placement and training provisions. 
First, as the organization that worked to initiate business planning 
within the national parks in the late 1990s, we are very pleased to see 
the consulting intern provision, which placement of graduate students 
to continue that program, which is now run through a partnership 
between the National Park Service and the Student Conservation 
Association. Well-trained consulting interns can provide useful 
assistance in areas beyond business planning as well, given the 
increasing demand for highly technical work in a variety of fields 
within the National Park Service.
    Second, the Park Service needs to replace retiring personnel with a 
high diversity of individuals, in order for the parks to adequately 
serve an increasingly diverse national community. The Act provides an 
important means to diversify the ranks of the National Park Service by 
recruiting and training individuals from a variety of backgrounds. The 
Act requires the National Park Service and other federal agencies to 
augment the training corps participants receive from nonprofit partners 
with appropriate training in resource stewardship, health & safety, 
ethics for public service, teamwork and leadership, and interpersonal 
communications. Corps members would also receive instruction about the 
agency's core values, history, and standards for natural and cultural 
resource preservation. NPCA wholeheartedly supports these training 
provisions, as well as providing noncompetitive hiring status for up to 
two years after completion of service for qualified candidates. We do 
suggest, however, that the bill be clarified to ensure the contemplated 
training requirement, in fact, augments rather than replaces the other 
high quality training participants receive.
    Finally, we are pleased that H.R. 1612 increases the prominence of 
service work related to historic and cultural resources. NPCA strongly 
believes that national service in our national parks should be 
sufficiently broad to encompass the tremendous civic, historical, and 
scientific resources and learning opportunities that our national parks 
have to offer. H.R. 1612 makes it clear that projects related to 
history and culture should have a prominent role in service corps 
efforts, including historical and cultural research, museum curatorial 
work, oral history projects and other cultural and historic 
preservation activities. In light of the significant backlog of 
archival work in the National Park System, we also suggest adding 
``archival work'' to the list of referenced activities. In addition, we 
suggest that the bill be modified to refer to the ``heritage'' mission 
of the National Park Service, in addition to the ``public lands'' 
mission.
    Mr. Chairman, the end of my written testimony includes several 
specific recommendations related to the issues I have raised, for the 
benefit of the committee. NPCA again wishes to thank you for 
introducing this important legislation, and to offer our assistance as 
the bill moves through the legislative process. Thank you once again 
for the opportunity to testify today.
Specific Recommendations
    <bullet>  Purpose Section: Add references to ``heritage agencies'' 
in (5) and (6)
    <bullet>  Purpose Section: add ``and other'' after ``conservation'' 
in (5)
    <bullet>  Purpose Section: Expand (6) to read, ``help promote 
public understanding and appreciation of the individual missions and 
work of the respective land management agencies, through training 
opportunities, service-learning, community outreach, and other 
appropriate means
    <bullet>  Residential Conservation Centers: Clarify the ability to 
partner with nonprofit service organizations to run the centers, and 
provide for placement on and outside public lands where appropriate
    <bullet>  Training: Clarify that training established by the 
Secretary supplements training provided by private sector partners
    <bullet>  Interpretation: Authorize corps participants to conduct 
appropriately supervised outreach to schools and afterschool and youth-
serving community-based organizations
    <bullet>  Interpretation: add multilingual services to list of 
authorized activities
    <bullet>  Mentors: Expand participation of older Americans beyond 
what is contemplated in the mentorship section, either by changing 
overall age eligibility for the corps or through greater leveraging of 
Volunteers in Parks or Senior Corps. Authorize ``Encore Fellowships'' 
with transferrable education awards for participants 55 and older.
    <bullet>  Cultural Resources: Add archival work to list of 
authorized activities
                                 ______
                                 

                  STATEMENT OF JOHN REYNOLDS, 
          COALITION OF NATIONAL PARK SERVICE RETIREES

    Mr. Reynolds. Thank you, Mr. Chairman. Bill Wade sends his 
personal regards. Thank you for holding this hearing and for 
inviting the Coalition of National Park Service Retirees to 
testify. My name is John Reynolds, I am a landscape architect. 
I am a member of the coalition having served nearly 40 years 
with the National Park Service, including in positions as Park 
Superintendent, Regional Director and Deputy Director.
    Since retirement, I have served on the boards of directors 
of the Student Conservation Association and Yosemite National 
Institutes, both serving young people in parks and other public 
lands. I currently am retained by the Student Conservation 
Association as an advisor. Dale is my boss. I am also through 
the National Parks Conservation Association a contract advisor 
to the Connecting People and Parks Committee of the National 
Parks Second Century Commission. Sally is my boss.
    Mr. Chairman, I will summarize my testimony and have 
submitted the full testimony for the record. Today you have 
brought before us an opportunity to combine some of the very 
best of American ideals into one very important act, an act 
that will benefit the nation's treasured lands and which will 
inspire and empower people who have inherited these lands as 
either their birth right or as a result of choosing citizenship 
in this nation.
    The National Park Service from its very beginning in 1916 
has benefitted greatly from service by individuals to their 
nation. The service has also seen itself from that time 
beginning as important in the education of the American people. 
This act will serve to make the traditions of the service's 
past even more relevant to the needs of today and the future.
    Some have called the national parks the best idea America 
ever had because of our nation's democratic impulse to save 
these parks for all of us regardless of who we are or where we 
are from. Today, the need to provide opportunity to connect 
Americans in the places they live to the richness of our 
national parks, public lands and cultural heritage is ever more 
evident.
    This act will be a permanent beneficial bridge between 
Americans and their nation. This bill is thoughtfully crafted. 
In my written testimony I list many provisions that the 
coalition wants especially to support, but which I will not now 
enumerate. The coalition wishes by that testimony to help 
ensure that these provisions are retained when this bill is 
enacted into law.
    The coalition requests that the Committee entertain the 
following possible additional amendments: 1] agency needs for 
multilingual front line assistants and qualified assistants in 
classrooms or outdoor learning programs be specifically 
included; 2] specific authorization for operation of 
residential centers by qualified, experienced nonprofit 
organizations; 3] addition of agency retirees to the mentoring 
program; 4] provision made for certain older Americans to 
serve, as well as youths; and 5] experience over the last 
several years in obtaining approval of a cooperative agreements 
in many agencies has been very discouraging to nonprofit 
partners with long, some over 50 years, and productive 
relationships with agencies.
    The enormous time and effort spent with lawyers and 
contracting officers has meant large outlays of money and time 
by nonprofit personnel. Agencies have had to waste precious 
funds and time detracting from their corps missions. This 
debilitating and detrimental condition still exists. It has the 
potential to create difficulties in implementation of this act.
    Section 206 could be greatly strengthened and efficient 
implementation materially improved by adding the following 
language: The Secretary is authorized to enter into cooperative 
agreements noncompetitively with the Student Conservation 
Association, conservation corps, or any other qualified 
nonprofit organizations, to perform any authorized function or 
purpose of the Department and its bureaus if the agreement 
will: 1] serve a mutual interest of the parties to the 
agreement in carrying out the programs administered by the 
Department; and 2] all parties contribute resources to the 
accomplishment of these programs.
    Both fairness and efficiency can, and need, be achieved. 
The coalition is deeply appreciative of the work of the 
Committee and its staff in preparing this bill. The benefits 
which will accrue to members of the corps, to the national 
parks, other public lands and to the Nation itself though 
difficult to quantify are truly important to our entire 
society.
    This bill positively affects the future of our youth and 
may well contribute to the future of their families. In so 
doing, it will be the nation, our society and our environment 
which will benefit from the investments made in the men and 
women who will have the opportunity of their lifetime. In 
summary, lives will be more joyful and productive, character 
will be honed, America will benefit.
    The testimony of Marcus and James is the most crucial of 
all. It is for their future and future generations that this 
bill is for. The Coalition of National Park Service Retirees is 
honored to have been asked to testify today, stands ready to 
assist and looks forward to the enactment of this bill. The 
coalition strongly and enthusiastically supports it. Thank you 
very much.
    [The prepared statement of Mr. Reynolds follows:]

              Statement of John J. Reynolds on behalf of 
            The Coalition of National Park Service Retirees

    Mr. Chairman and other distinguished Members of the Subcommittee: 
thank you for holding this hearing on H.R. 1612, the Public Land Corps 
Service Act of 2009, and for inviting the Coalition of National Park 
Service Retirees to testify on this Act. We are deeply appreciative of 
the opportunity, and of your commitment to this Act.
    The Coalition now consists of more than 700 individuals, all former 
employees of the National Park Service, with more joining us regularly. 
Together we bring to this hearing over 21,000 years of accumulated 
experience. Many of us were senior leaders and many received awards for 
stewardship of our country's natural and cultural resources and making 
them available to people for their enjoyment. As rangers, executives, 
park managers, biologists, historians, interpreters, planners and 
specialists in other disciplines, we devoted our professional lives to 
maintaining and protecting the national parks for the benefit of all 
Americans--those now living and those yet to be born. In our personal 
lives we come from a broad spectrum of political affiliations and we 
count among our members four former Directors or Deputy Directors of 
the National Park Service, twenty-three former Regional Directors or 
Deputy Regional Directors, twenty-eight former Associate or Assistant 
Directors and over one hundred and seventy former Park Superintendents 
or Assistant Superintendents; as well as a large number of other former 
employees, including seasonal employees.
    I am a member of the Coalition, having served nearly 40 years with 
the National Park Service including in positions as park 
superintendent, regional director and deputy director. Since retirement 
I have served on the Boards of Directors of the Student Conservation 
Association (SCA) and Yosemite National Institutes, both serving young 
people in parks and other public lands. I currently am retained by SCA 
as an advisor.
    The National Park Service, from its very beginning in 1916 has 
benefited greatly from service by individuals to their nation. The 
Service has also seen itself from that same beginning as important in 
the education of the American people. This Act will serve to make the 
traditions of the Service's past even more relevant to the needs of 
today and the future.
    Our nation finds itself today working to address many crisis--
environmental, economic and educational among them. It is also a time 
in our history when young people have often grown up with little 
opportunity for connection to either the outdoors or to our common 
history. Nor has personal service to the nation been at the forefront 
of the lives of most of them. Yet, today, you have brought before us an 
opportunity to combine some of the very best of American ideals into 
one very important Act, an Act that will benefit the national parks and 
other public lands. In addition, it will inspire and empower people who 
have inherited these same lands as either their birthright or as a 
result of choosing citizenship in this nation.
    Some have called the national parks ``The Best Idea America Ever 
Had.'' It has been labeled so not because of the wonderful natural, 
scenic, historic or recreational resources which comprise the parks, 
but because of our nation's democratic impulse to save these parks for 
all of us, regardless of who we are or where we are from. Today, the 
need to provide meaningful opportunity to connect Americans in the 
places they live to the richness of our national parks, public lands 
and waters and cultural heritage is ever more evident. This Act will be 
a permanent, beneficial bridge between Americans and their nation.
    The National Park Service has valued the service of the members of 
the Public Land Corps since the Corps' inception. It has been a natural 
marriage of ideals held dear in our nation--preservation of the finest 
of our patrimony combined with service and opportunity for education 
which will further benefit both the individual and the nation for years 
beyond the service given.
    This bill, H.R. 1612, is an excellent bill. Its enactment with a 
few amendments will provide important assistance to the National Park 
Service as it carries out its mission in the future.
    The Coalition wants especially to support the following provisions 
in the bill, and wishes by this testimony to help ensure that they are 
included in the ensuing public law when it is finally enacted:
     1.  The amendments to Sec. 202(a) and 202(b) which recognize the 
equality of importance of work relating both to natural and cultural 
resources. Our national patrimony as included in the National Park 
System and other public lands is comprised of both, and both are 
important to our national fabric.
     2.  The amendments Sections 202(a)(4) and (5), which recognize and 
elucidate the value of national service to the participants themselves 
and the potential benefits to communities.
     3.  The amendment at Section 204(b) extending the service time to 
up to two years.
     4.  The amendments adding Section 202(b)(5) which recognizes the 
importance of seeking participants from diverse backgrounds and (6) 
which promotes public appreciation of the work of federal land, coastal 
and ocean management agencies.
     5.  The amendment of the definition in Section 203 to expand the 
inclusiveness of the kinds of projects that are appropriate under this 
Act.
     6.  The amendment that expands the definition of ``public lands'' 
in Section 203.
     7.  The amendments which add the National Oceanic and Atmospheric 
Administration in the Department of Commerce to the coverage of this 
Act, and specifically referencing ``the National Marine Sanctuary 
System, coral reefs, and other coastal, estuarine and marine 
habitats'', all of which are important to the success of the mission of 
the National Park Service.
     8.  The amendments in Section 204 which relate to recruitment and 
training. It is highly commendable that the committee has included the 
requirements that training standards include, in addition to resource 
stewardship and health and safety, ethics, teamwork, leadership, and 
interpersonal communications as hallmarks for future civic 
responsibility of participants in the Public Land Corps, and that 
participants understand the history, core values and management 
policies and standards of the agency for which they are providing 
service.
     9.  The amendments at Section 205(f) relating to the use of 
mentors from agency programs, veterans groups, military retirees and 
active duty personnel.
    10.  The amendment adding Section 206(a)(2) authorizing 
``consulting interns'' is of great value to the National Park Service. 
Internships and volunteerism have long been primarily related to 
physical labor kinds of work, which has been appropriate and remains 
necessary. However, as management of national parks and other public 
lands and waters has matured over the years, the need for highly 
educated, intellectual work has increased dramatically in all fields. 
The specific recognition of that essential need through the 
authorization of ``consulting interns'' in this legislation is to be 
commended.
    11.  The amendment at Section 206(b)(2) authorizing implementation 
of the recruitment and placement requirements of carrying out the 
provisions of this Act through the use of qualified nonprofit 
organizations is crucial to effectively finding and placing highly 
qualified, diverse participants.
    The Coalition requests the Committee to entertain possible 
additional amendments, as follows:
    1.  Section 204: The Coalition is mindful that older Americans may 
wish to provide service and acquire educational opportunity which they 
may not previously have had. Therefore, the Coalition suggests that 
provision be made for older Americans to serve as well as youth.
    2.  Section 204: The national parks, and other public lands 
agencies, need front line individuals who are multilingual. They also 
need well qualified people to assist in classroom or outdoor learning 
programs. The Coalition suggests that these needs be recognized in the 
final legislation by specific mention of them in the Interpretation or 
Visitor Services subsections.
    3.  Section 205: The Coalition suggests that the legislation should 
specifically authorize operation of residential centers by qualified, 
experienced nonprofit organizations, such as the Student Conservation 
Association.
    4.  Section 205(f): The Coalition suggests that the committee add 
authorization of the use of agency retirees to the mentoring program 
authorized in this section, noting that the Coalition of NPS Retirees 
could help facilitate recruitment of such mentors from its membership.
    5.  Experience over the last several years in obtaining approval of 
cooperative agreements in many agencies has been discouraging, at best, 
to a wide array of nonprofit partners with long and productive 
relationships with agencies. The enormous time and effort spent with 
lawyers and contracting officers has meant large outlays of money and 
time by nonprofit personnel. Similarly, agencies have had to use 
precious funds and time themselves that could have been used for more 
productive purposes. This condition has operated to the detriment of 
the missions of both the nonprofit partners and the agencies. This 
situation still exists and has the potential to create difficulties in 
implementation of this Act. The Coalition suggests, therefore, that 
Section 206 of the legislation could be greatly strengthened and the 
efficient implementation of the Act materially improved by adding the 
following language:
        ``The Secretary is authorized to enter into cooperative 
        agreements noncompetitively with the Student Conservation 
        Association or any other qualified nonprofit organization to 
        perform any authorized function or purpose of the Department 
        and its bureaus, if the agreement will: (1) serve a mutual 
        interest of the parties to the agreement in carrying out the 
        programs administered by the department; and (2) all parties 
        contribute resources to the accomplishment of these programs.''
    In addition, the Act could be strengthened, when contracting is 
needed, by directing the Secretary to use efficient sole source 
acquisition methods when the Secretary can demonstrate that there is 
only one organization qualified to do the job required.
    The Committee could also help insure that unnecessary and unduly 
burdensome acquisition procedures not be imposed in carrying out the 
provisions of this Act by writing report language clearly specifying 
the intent of the Committee (and ultimately the Congress) in these 
regards. It is the experience of the Coalition that contracting 
officers and agency attorneys often opt for the most complex approaches 
rather than the using those that are most efficient, while ensuring 
fairness to all.
    The foregoing listing of exemplary benefits to the national parks 
and other public lands agencies is not exhaustive. This initial bill is 
exceptionally well written, and the Coalition is deeply appreciative of 
the work of the Committee and its staff in preparing it.
    The benefits which will accrue to the national parks, to the other 
public lands, to the participants in the Corps and to the nation itself 
are difficult to quantify. They are, however, truly important, and will 
run through our entire society. As others are testifying, young people 
today are in a unique and not entirely favorable situation. The 
opportunity inherent in this bill greatly affects their future, and may 
well contribute to the future of their families. In so doing, it will 
be the nation, our society and our environment which will benefit the 
most from the investments made in the young men and women who will have 
the opportunity of their lifetime as a result of this bill. The 
national parks will benefit greatly, as will the other public lands. 
Such benefit will not accrue only in the short term of each Corps 
member's service, but in the long term as well. In summary, lives will 
be more joyful and productive, character will be honed, America will 
benefit.
    Thank you for the opportunity to participate in the Committee's 
inspired action to support both national service and the public lands, 
including the national parks, through this bill, H.R. 1612. The 
Coalition of National Park Service Retirees is honored to have been 
asked to testify today, stands ready to assist your efforts in this 
regard in any way which we can, and looks forward to the enactment of 
this bill.
                                 ______
                                 
    Mr. Grijalva. Thank you. Thank all of you for your 
comments. Let me begin with you, if I may, Mr. Reynolds. Among 
the amendments that the coalition suggested is the one to make 
it possible for older Americans, as well as youth, to serve in 
the Public Lands Service Corps. We accomplish that how? Would 
you suggest that we keep any mention of a target age out of the 
legislation or continue to have that target age of 16 to 25 as 
still part of the legislation?
    Mr. Reynolds. Mr. Chairman, I would suggest that we keep 
the target age, but in addition, add opportunities for older 
Americans who had never had the opportunity to go on to school 
to be able to qualify under certain circumstances. We would be 
more than willing to help work on trying to define what that 
means.
    Mr. Grijalva. OK. Thank you. We look forward to that 
discussion. The intent is that target age but I think your 
point is well-taken about the mentoring and the possibility of 
some cross-generational understanding that we need very 
desperately as well, and so your point is well-taken. I look 
forward to discussing that point with you.
    Mr. Reynolds. Thank you.
    Mr. Grijalva. I know, Ms. Jewell, you have to get going to 
catch----
    Ms. Jewell. I am OK for now.
    Mr. Grijalva. OK. I was going to ask Mr. Childress a 
question, if I may. Thank you for your comments and sharing 
your experiences with us. Chairman of the full Committee, Mr. 
Rahall, is unable to be here. He wanted to make sure that I 
extended his welcome to you. Beckley is his home town also, and 
he asked me to extend his best wishes. The New River Gorge 
National Park is also very near and dear to the Chairman. He 
welcomes you, and he said it is good to have a hometown boy in 
the house, so he is happy.
    You know, you mentioned your two brothers as part of the 
discussion, I think. Do you think your siblings, and I am going 
to ask the same question to all of you, watching you going 
through this program and the experience that you have gone 
through with the corps, what effect has it had on them?
    Mr. Childress. The effect it has on them is back then they 
looked at me as somebody to look up to during our hard time, 
and now that I have been in the corps, they are looking at me 
now like, hey, I could actually look up to him and do something 
with my life instead of being here like many other children.
    I think through this corps it is going to help my two 
brothers learn that there is more out there than just sitting 
inside playing video games all day, which, I mean, it is not 
bad, but sometimes we have to go outside and do stuff, and 
learn to work, and learn responsibility and put with teamwork. 
So I am thinking by me doing this it is showing them that there 
is something outside of just sitting in the house all day.
    Mr. Grijalva. After you complete your college education, do 
you see yourself pursuing a career in the National Park Service 
public land area?
    Mr. Childress. After I finish I want to attend the 
military, but outside of that, I want to still help outside 
national park and everything and help pursue in the Public 
Lands Corps if that is able to me to be able to help them.
    Mr. Grijalva. Thank you very much. Ms. Prouty, I understand 
that many corps members do not work full-time because, you 
know, they can't afford to or prefer not to go too far from 
home. This is one of the critical populations that we hope to 
capture with this legislation, as you know. Do you have any 
concerns that the preferential hiring language requiring 960 
hours of service might be a disincentive to some members that 
would want to participate? If so, do you have any suggestions 
about how to deal with that concern?
    Ms. Prouty. Thank you, Mr. Chairman. That is a concern for 
us. I would say that all of our corps are full-time, but they 
are for varying lengths of time. So some are a short number of 
weeks or months so that getting to the 960 hours is not 
possible for them. I would really appreciate the opportunity 
for us to work with you to think about whether there is a 
tiered opportunity within the noncompetitive hire which for 
lesser number of hours.
    Many of our young people would be qualified for entry-level 
jobs that would not be ready for more advanced positions with 
Federal agencies, so we appreciate the chance to work with you 
on that.
    Mr. Grijalva. OK. Just a quick follow-up. In your testimony 
you list a very impressive list of achievement of the service 
corps. Just for the sake of my understanding, what do you think 
of the program? Is it a land management program? Is it a human 
resource development program? Is it an intervention program for 
at risk kids? I mention that because it is rare to have 
something as successful having all those ingredients. If you 
were to classify it or put a definition on it, what would it 
be?
    Ms. Prouty. Well, it would be all of the above. It is 
interesting, we have wonderful corps that have college 
students, college graduates, SCA and a number of others. We 
also have corps that are fully concentrated on young people who 
are not making it in their community. We have corps that 
concentrate on young people who have been formerly incarcerated 
and Court involved.
    So we have two areas in which we feel strongly about 
evaluation and one is in member development, and it is member 
development based on the point of entry, and the other is 
impact in the community and the environment. We see corps as 
unique to the communities in which they live and breathe. They 
have grown up in communities, they are different and they set 
their own standards for enrollment. We see benefit across the 
board, and most dramatic benefit in terms of education and 
workforce development is for those who come in at a much lower 
level.
    Mr. Grijalva. Thank you. Let me thank you for your comments 
today. Also, Mr. Hendricks, let me follow-up and thank you as 
well for being here and sharing your experiences with us. Let 
me follow-up on the question that I asked Mr. Childress. When 
you are done with the career goal that you have to finish 
college do you see park service, public lands service as 
potentially a career down the road?
    Mr. Hendricks. Thank you, Mr. Chairman. I initially intend 
to be a medical doctor once I graduate and also have my 
mechanical engineering degree to be a source of education where 
I can do some research in space propulsion since that is 
another big interest of mine. However, I don't intend to be a 
medical doctor----
    Mr. Grijalva. However.
    Mr. Hendricks.--and an engineer forever. It would be nice 
to be able to find a quiet job working in a national or a state 
park as I get to my gray years. And to also answer your earlier 
question of my siblings being inspired by the work I do----
    Mr. Grijalva. Yes?
    Mr. Hendricks.--my sister is interested in working with the 
SCA. It is going to be hard convincing her that she can work 
with the SCA and have a fun summer instead of doing something 
else and earning money to pay for an iPod, for example. Thank 
you, Mr. Chairman.
    Mr. Grijalva. Thank you. Mr. Penny, your suggestion that 
the legislation potentially could go further, you know, to fund 
local training programs, city/county parks, I am assuming you 
would include state parks in that example.
    Mr. Penny. Right.
    Mr. Grijalva. What role do you envision then for the 
Federal government in this more collaborative effort that you 
are suggesting?
    Mr. Penny. Well, thank you for the question, and, yes, I 
do. What we have found is that one of the great things about 
young people in urban centers is that they are more drawn to 
conserve their own land than they are to go onto Federal lands. 
I think all of the bureaus, all of the agencies are going to 
help diversify their workforce and represent and be friendly to 
diverse populations. We need to find some way to extend the 
reach beyond the park boundaries and into communities.
    So what we see is collaborating with organizations, like 
SCA, the various conservation corps, and seeking matching 
funds, and if the Federal government could help provide 
training programs for young people once they have gone through 
a certain level of program in their local community, if the 
Park Service, for instance, would then provide those students 
with a secondary experience on the Federal lands then help them 
qualify for preferential hiring, then I think we could more 
readily attract more diverse young people into Federal lands 
and public lands.
    Mr. Grijalva. I have completely gone way over the time 
before they call us to vote again, but in going way over time I 
have been neglectful of my two colleagues that are here as 
well. One more question. Ms. Jewell, you talked about the need 
for experienced folk to be part of the corp.
    Ms. Jewell. Correct.
    Mr. Grijalva. How do you envision this process? Is that a 
training capacity, mentoring capacity or participant capacity?
    Ms. Jewell. Well, it could be all of the above but I was 
thinking of it in terms of a participant capacity, and I will 
give you some great examples. REI's oldest employee is 92, our 
youngest employee is 16. Our 92 year old employee works on the 
sales floor in Reno, Nevada, and there isn't a service project 
that that store does out in the community that Mountain Bob, 
our 92 year old, isn't a part of.
    I think what we have found, and this is true when we work 
outdoors with, for example, Earth Corps or the Washington 
Trails Association, you frequently have experienced Americans 
working alongside young people and the richness of exchange is 
amazing. So I would say it is at a participant capacity, but 
you also have skills that have been learned over a lifetime 
that can be applied and so it could also be in training. We see 
that at both ends.
    Mr. Grijalva. I will follow-up on another question, we 
would like to get it in writing for the Committee, having to do 
with the issue of flexibility in a schedule, because I try to 
accommodate both participant, experienced folk as part of the 
corps, and I am glad. I think that age mixture is good, and 
when Dr. Hendricks retires there will be a place for him in the 
corps. Let me now turn to Ms. Bordallo for any questions. Thank 
you for being patient.
    Ms. Bordallo. Thank you, Mr. Chairman, for the opportunity. 
I want to thank all the witnesses here. I was very interested 
in listening to your statements, and I especially enjoyed 
hearing the testimonies of Marcus and James. You know, when you 
think about it, programs like these can make such a difference 
in your life.
    I speak to students about careers on many occasions and I 
always say what you have in mind may not be in your earlier 
years what you really are going to end up doing. It may even 
have something to do with someone you married. I married a 
politician so that is why I am here today. I truly appreciate, 
you know, all of the volunteers and what they are doing in this 
program.
    Mr. Chairman, I applaud you for sponsoring this bill. I 
want to ask the young men first, what do we need to have in 
this program to make it as attractive as possible to the young 
people? How do we go about doing outreach? Advertising? I mean, 
are we doing enough? So I will begin with you, Marcus.
    Mr. Hendricks. Sure. Thank you. I think that one great way 
to reach young people is to provide an incentive. A lot of 
young people are interested in being independent, and one way 
that they can be independent is to have their own source of 
money.
    Now, I also think that a lot of people are interested in 
working in public lands for the betterment of their community 
in order to improve the lands as they are or to create a sense 
of community responsibility to take care of the national 
environment that they live in, and I think there is a lot more 
that you can do than to just give students money.
    You can also in terms of advertising reach out to a lot of 
high school students because high school students are looking 
forward to going to college, and they also have to face that 
decision what are they going to do with the next, 40, 50, 60 
years of their life? If you start marketing to them when they 
are in their sophomore or junior year when they are making the 
decisions about where they want to go to college and what they 
want to do, then that is when you can----
    Ms. Bordallo. So perhaps this legislation should address 
that, Mr. Chairman, as well as to do a little more marketing 
for this program so that, you know, now these students, their 
siblings know about it, but how do we outreach to the rest? 
James, do you have any comments on that?
    Mr. Childress. Yes. Just like Marcus said, the same thing. 
I have a brother that is about to graduate high school and so 
by me being in this he is wanting to do the same thing. It is a 
way to be independent, too, and make sure he is going on the 
right path, like I am. So by advertising this out to younger 
students, especially from their sophomore year, if we get to 
them now, there is a better chance that they will probably 
change their whole career outlook and the rest of their life.
    Ms. Bordallo. Thank you, thank you. Now, I have question 
for Mr. Penny. H.R. 1612 would amend the Public Lands Corps Act 
to allow the United States Fish & Wildlife Service to 
participate as an eligible bureau under the Public Lands Corps 
Act. Now, I believe this is a very excellent idea. As you may 
be aware, two other separate laws facilitate the contributions 
of volunteers at our national wildlife refuges and at our 
national fish hatcheries.
    Through these two laws, one is the National Wildlife Refuge 
System Volunteer and Community Partnership Act and the other is 
the National Fish Hatcheries Systems Volunteer Act, now, the 
Fish & Wildlife Service has established nearly 190 friend 
organizations through these programs. The service also has 
received thousands of hours of invaluable volunteer labor and 
in kind services which have helped alleviate cut backs in 
Federal staff levels at our refuges and hatcheries.
    My questions are: has your organization ever provided any 
volunteers to support operations at our national wildlife 
refuges or the national fish hatcheries, and, if not, is there 
some impediment preventing it? The second question is do you 
anticipate that the passage of H.R. 1612 will make it easier 
for your organization to place volunteers within the refuge and 
hatchery systems?
    Mr. Penny. Well, thank you for the question, and the 
response is, yes, we have worked with the Fish & Wildlife 
Service on numerous occasions for many years. SCA has had a 
cooperative agreement with Fish & Wildlife Service for about 
the last 30 years. So the only thing that keeps us from doing 
more of it is money and the authority for them to work more 
closely with us and other youth serving organizations.
    I think it is an absolutely fabulous inclusion to have Fish 
& Wildlife Service as a part of this. I might also say that 
also having NOAA and Commerce involved with this is really 
important.
    What we do know is that increasing numbers of young people, 
particularly college students, are very interested in serving 
on our shore lands, and marine sanctuaries and marine lands, 
and so the more we can do with both Fish & Wildlife Service and 
NOAA, the more opportunities and the more young people will be 
interested in being involved. So I think that is an excellent 
inclusion.
    Ms. Bordallo. Very good, and I do agree. One last question, 
Mr. Chairman.
    Mr. Penny. Ma'am, may I just respond to the question you 
asked Marcus and James?
    Ms. Bordallo. Yes.
    Mr. Penny. I would say the best way to recruit more young 
people into working on public lands is to get young people out 
talking to them. I would say the best way to do that is to work 
with cooperating organizations, like SCA, like the various 
corps, and get their members visiting schools and sharing their 
experience. It is not those of us with gray hairs that recruit 
them or even a green and gray uniform with the Park Service, it 
is somebody that shares their experience and their age.
    Ms. Bordallo. I agree. I agree with that wholeheartedly. 
One last question, and this could be Ms. Prouty or Mr. Penny. 
Do your organizations have any programs on Guam or in any of 
the other insular areas, and, if not, what can we do to get SCA 
and corps volunteers in the Guam National Wildlife Refuge?
    Mr. Penny. Well, I can respond. On occasion we have had 
some college interns serving in Guam and also in the Virgin 
Islands. We certainly work with the parks in the Virgin Islands 
there, and we would like to do more.
    Ms. Bordallo. Good. Well, I would certainly like to invite 
you to do more.
    Ms. Prouty. And we would like to work with you to do more, 
and we have not.
    Ms. Bordallo. I have been assured by the Chairman that the 
territories are included in this legislation. Thank you, Mr. 
Chairman. Thank you.
    Mr. Grijalva. Thank you, and thank you for those 
suggestions, Ms. Bordallo. I think the issue of outreach and 
how it is done and the importance of that is important and the 
insular areas and territories to be included in the overall 
scope of the legislation as vital, and necessary and fair, and 
thank you for both of those. Mr. Inslee?
    Mr. Inslee. Thank you, and particularly thanks to Dale 
Penny and Sally Prouty for your help with developing a clean 
energy corps which is a somewhat allied effort. We really 
appreciate it. We think we have a good product. We have a suite 
of these opportunities for young people now, so whatever their 
vision is, they can take advantage of it.
    I want to ask Sally Jewell, and welcome her as a leader in 
our community in Washington State, and she has been a very 
successful business leader in a variety of contexts, and I just 
wonder, Sally, if you can give us any thoughts about if you 
were looking at this from a business perspective, do you have 
any suggestions on how to operate these particular endeavors? 
Do you have any suggestions, any criticisms? You certainly know 
how to run an operation, so if you have any thoughts, I would 
solicit them.
    Ms. Jewell. Thanks, Congressman. I have a lot of 
suggestions, and I will make them brief. REI engages with lots 
of nonprofit organizations. We are very, very committed to 
supporting our public lands. SCA and many of the members of the 
corps network are organizations that we work closely with. I 
would say that while they are very committed to their work, 
they are always short of money.
    It is not uncommon for them to run into bureaucracy when 
they work on public lands. I think one of the things that could 
be facilitated to help move these things forward is a clear 
commitment on the part of the public agencies from all the ones 
that have been mentioned, certainly national parks, but U.S. 
Forest Service, Fish & Wildlife Service, NOAA and so on, to 
really help create a supportive infrastructure to bring in 
organizations that are very, very effective in engaging young 
people, and older people, in service, as well as volunteers.
    So I think that you end up with national park 
superintendents and national forest supervisors who are really 
supportive in some cases, and in other cases it is more 
difficult to bring the volunteer resources to bear I think 
sometimes because of the challenges they face within their own 
agencies.
    Mr. Inslee. This may be a little controversial, but we 
might want to think about specific appropriations and 
allocations for volunteer infrastructure. You know, to get 
volunteers in, you have to have the personnel to organize, 
supervise, recruit. Maybe that is something we can think about 
more in the appropriation side of this. Let me ask you, my son 
works for a group called Outdoors for All. They take people 
with challenges, quadriplegics and blind people, skiing and 
kayaking. It is a pretty amazing group.
    Would this bill allow folks to essentially be detailed to 
organizations like that, or at least work arm in arm with them? 
How flexible would this allow these corps to be? It is an open 
question to anyone. I see Dale Penny shaking his head. Do you 
have any thoughts about that, Dale?
    Mr. Penny. Sure. We would like to be able to include groups 
like that for appropriate level of work to be done. I think you 
would have to be very clear about where they could work and 
what is appropriate from a risk management point of view, but I 
think it should be open to all of those groups.
    Mr. Inslee. Yes. I was thinking actually more of the 
question of the relationship between these volunteers, these 
corps members, with nonprofits. In other words, can you 
actually sort of lend out a person on this corps to a nonprofit 
organization like this for a week or a month or under their 
supervision?
    Mr. Penny. Sure.
    Mr. Inslee. Is that workable? Does the statute as we have 
drafted it allow sufficient flexibility in that regard?
    Ms. Prouty. Thank you for the question, and thank you for 
your leadership from Community Service Corps. We owe you big 
time. We appreciate you. If the money from the bill is in fact 
as I understand it for projects, and if the cooperative 
agreement with the corps is to complete a particular project or 
a series of projects, then the corps would have to be focused 
on those projects. So it sounds to me like the line of 
reasoning that you are engaged in might not sit or we might 
need to think about that.
    We, both Bill and I, have corps around the country who have 
individual placements of members doing particular work, but it 
is different from what we would normally see in a public lands 
corps, project funded corps.
    Mr. Inslee. Well, I might actually ask the staff to help me 
look at that issue because I think it is a force multiplier 
when we can get these groups working. Sally, did you have any 
thought?
    Ms. Jewell. Well, I was just going to make a comment. I 
think that the legislation to do that and the public service 
acts that passed recently accommodate some of what you are 
discussing. What this is specifically looking at is really 
around public lands, which weren't explicitly called out in the 
earlier legislation, so I do think that there is a benefit of 
focus that Chairman Grijalva has put into this legislation 
around public lands because the need is so great.
    I think if you go back to the testimony of Will Shafroth a 
little bit earlier, he talked about, you know, the opportunity 
not just, say, in a national park, but all the way down to city 
parks and public lands. It is a great way to engage people in 
public service close to where they live.
    In my conversation with James as we were waiting for the 
session to start, you know, a lot of his work, he stays at home 
and he goes to the site during the day and then he comes back, 
and I think that really addresses these kinds of opportunities 
and service learning close to home as well as more remote 
destinations, like SCA does. I think that the GIVE Act and the 
equivalent act in the other body do help address what you are 
talking about. That is my understanding.
    Mr. Inslee. Yes. I appreciate it. Mr. Reynolds?
    Mr. Reynolds. May I return to a comment that Sally Jewell 
made about the bureaucratic hurdles to be overcome to get 
through some of these things? There is an example at the Fish & 
Wildlife Service and it is the creation of a new agreement with 
the SCA. Took less than six months. It went very quickly. It 
was very easy.
    As a counterpart, and the Fish & Wildlife Service has 
specific legislation that allows for cooperative agreements so 
it doesn't have to have the same interpretations of solicitors 
and contracting officers that the Park Service is faced with 
because it doesn't have the similar legislation. The Park 
Service agreement, which should be done in about a month, has 
been going on for two years, 11 months, and it is still 
counting to get this agreement.
    The reason I made the recommendation in my testimony about 
legislation was to eliminate that kind of bottleneck for all of 
the agencies. It is not because the agencies don't want to make 
things happen, it is because the advisors to the agencies in 
contracting and attorneys have different interpretations of 
law. If we want this act and other cooperative acts to get used 
in the parks and the other public lands to work efficiently, 
these authorities need to be addressed.
    Mr. Inslee. Well, I know many would seek to outlaw 
attorneys in this country but I do not favor that approach. 
Being one, and being proudly a lawyer, a won't favor that 
issue.
    Mr. Reynolds. Fish & Wildlife Service has an excellent 
approach at authorities.
    Mr. Inslee. I appreciate that. Just, I really want to thank 
Mr. Hendricks and Mr. Childress for being here. You guys are 
exactly what we had in mind, and it is just wonderful to see 
your futures developing. I want to give you a warning, though. 
I know a couple guys who were involved in SCA and doing this 
kind of work. One of them ended up a very wealthy investment 
banker and one ended up a congressman, so you have to be 
careful when you get into these things. I am giving you 
warnings about that. Good luck. Thank you.
    Mr. Grijalva. Thank you, Mr. Inslee. Mr. Holt?
    Mr. Holt. Thank you, Mr. Chairman. I commend you and Mr. 
Rahall for pursuing this legislation. I am pleased to have 
worked to get national parks included in the recent volunteer 
service legislation. All of you have spoken about how much the 
potential is, in fact, Sally Prouty specifically said potential 
exists in today's young people. I would like to look from the 
other side what the potential is.
    Sally Jewell I know heard the Secretary of the Interior say 
just last night that he would like to greatly increase the 
volunteer opportunities in the parks. I wanted to get some idea 
of what is the upper limit? What could the system absorb? How 
large scale might we go to? Perhaps you have covered this 
already in today's hearing, but I think it is an important 
enough question it wouldn't hurt covering it again.
    Ms. Jewell. Well, let me take a stab at it, and I am sure 
Sally Prouty and Dale perhaps would have things to add as well. 
In the hundreds of organizations that REI----
    Mr. Grijalva. If I may just, and not to interrupt, well, 
yes, I guess it is----
    Ms. Jewell. You are the Chairman.
    Mr. Grijalva. We have been called to a vote. We have about 
five, six minutes, so as we wrap up, I am just urging you to be 
as succinct as you can.
    Mr. Holt. Yes. I mean, if you can just give us your 
estimate in a sentence to why.
    Ms. Jewell. Well, I would say that the potential is 
hundreds of thousands, and I will say why, and that is because 
right now many, many programs are being cut and there is 
infrastructure and the people in the organizations ready to 
step forward but they don't have funding right now to be able 
to do it. So I think it could be enlarged dramatically.
    Ms. Prouty. I would say that we have recently been in 
communication when working with Department of the Interior, and 
we have given them basic information around the 200,000 number. 
So those discussions would be continuing obviously and they are 
not hard and fast, but that is the number we are thinking.
    Mr. Penny. I would agree with both. The capacity of all of 
the organizations collectively is huge if the money is there to 
support the buildup of that capacity and the young people are 
there. I think that is important, too.
    Mr. Holt. Thank you. I wish we could continue the 
discussion. Again, I commend the Chair for pursuing this 
legislation.
    Mr. Grijalva. Thank you very much. So let me thank all of 
you for being here. It has been very informative with some very 
good suggestions. we will follow up with you on them. In terms 
of the legislation, it is a vehicle--a vehicle to promote the 
three things that I asked the question about: intervention in 
one area, human resource development in another, and our public 
lands. That is the intent of the legislation, to try to 
accomplish those three--as some of the fine organizations that 
are here have been doing for a long time.
    We look forward to moving this legislation ahead, and with 
the input of my colleagues as well as from you, I think we will 
have a good vehicle for accomplishing those three goals. So 
thank you very much. Very informative and a good hearing. Thank 
you. The meeting is adjourned.
    [Whereupon, at 3:50 p.m., the Subcommittee was adjourned.]

                                 <all>

</pre></body></html>
